<html>
<title> - OVERSIGHT OF POSITIVE TRAIN CONTROL IMPLEMENTATION IN THE UNITED STATES</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]








OVERSIGHT OF POSITIVE TRAIN CONTROL IMPLEMENTATION IN THE UNITED STATES

=======================================================================

                                (115-35)

                                HEARING

                               BEFORE THE

                 SUBCOMMITTEE ON RAILROADS, PIPELINES,
                        AND HAZARDOUS MATERIALS

                                 OF THE

                              COMMITTEE ON
                   TRANSPORTATION AND INFRASTRUCTURE
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                           FEBRUARY 15, 2018

                               __________

                       Printed for the use of the
             Committee on Transportation and Infrastructure




[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]











     Available online at: https://www.govinfo.gov/committee/house-
     transportation?path=/browsecommittee/chamber/house/committee/
                             transportation
                                   ______
		 
                     U.S. GOVERNMENT PUBLISHING OFFICE 
		 
30-766 PDF                WASHINGTON : 2018                 





























             COMMITTEE ON TRANSPORTATION AND INFRASTRUCTURE

                  BILL SHUSTER, Pennsylvania, Chairman

DON YOUNG, Alaska                    PETER A. DeFAZIO, Oregon
JOHN J. DUNCAN, Jr., Tennessee,      ELEANOR HOLMES NORTON, District of 
  Vice Chair                         Columbia
FRANK A. LoBIONDO, New Jersey        EDDIE BERNICE JOHNSON, Texas
SAM GRAVES, Missouri                 ELIJAH E. CUMMINGS, Maryland
DUNCAN HUNTER, California            RICK LARSEN, Washington
ERIC A. ``RICK'' CRAWFORD, Arkansas  MICHAEL E. CAPUANO, Massachusetts
LOU BARLETTA, Pennsylvania           GRACE F. NAPOLITANO, California
BLAKE FARENTHOLD, Texas              DANIEL LIPINSKI, Illinois
BOB GIBBS, Ohio                      STEVE COHEN, Tennessee
DANIEL WEBSTER, Florida              ALBIO SIRES, New Jersey
JEFF DENHAM, California              JOHN GARAMENDI, California
THOMAS MASSIE, Kentucky              HENRY C. ``HANK'' JOHNSON, Jr., 
MARK MEADOWS, North Carolina         Georgia
SCOTT PERRY, Pennsylvania            ANDRE CARSON, Indiana
RODNEY DAVIS, Illinois               RICHARD M. NOLAN, Minnesota
MARK SANFORD, South Carolina         DINA TITUS, Nevada
ROB WOODALL, Georgia                 SEAN PATRICK MALONEY, New York
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut, 
JOHN KATKO, New York                 Vice Ranking Member
BRIAN BABIN, Texas                   LOIS FRANKEL, Florida
GARRET GRAVES, Louisiana             CHERI BUSTOS, Illinois
BARBARA COMSTOCK, Virginia           JARED HUFFMAN, California
DAVID ROUZER, North Carolina         JULIA BROWNLEY, California
MIKE BOST, Illinois                  FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           DONALD M. PAYNE, Jr., New Jersey
DOUG LaMALFA, California             ALAN S. LOWENTHAL, California
BRUCE WESTERMAN, Arkansas            BRENDA L. LAWRENCE, Michigan
LLOYD SMUCKER, Pennsylvania          MARK DeSAULNIER, California
PAUL MITCHELL, Michigan              STACEY E. PLASKETT, Virgin Islands
JOHN J. FASO, New York
A. DREW FERGUSON IV, Georgia
BRIAN J. MAST, Florida
JASON LEWIS, Minnesota

                                  (ii)

  

     Subcommittee on Railroads, Pipelines, and Hazardous Materials

                   JEFF DENHAM, California, Chairman

JOHN J. DUNCAN, Jr., Tennessee       MICHAEL E. CAPUANO, Massachusetts
SAM GRAVES, Missouri                 DONALD M. PAYNE, Jr., New Jersey
LOU BARLETTA, Pennsylvania           ELIJAH E. CUMMINGS, Maryland
BLAKE FARENTHOLD, Texas              STEVE COHEN, Tennessee
DANIEL WEBSTER, Florida              ALBIO SIRES, New Jersey
MARK MEADOWS, North Carolina         JOHN GARAMENDI, California
SCOTT PERRY, Pennsylvania            ANDRE CARSON, Indiana
MARK SANFORD, South Carolina         RICHARD M. NOLAN, Minnesota
TODD ROKITA, Indiana                 ELIZABETH H. ESTY, Connecticut
JOHN KATKO, New York                 CHERI BUSTOS, Illinois
BRIAN BABIN, Texas                   FREDERICA S. WILSON, Florida
RANDY K. WEBER, Sr., Texas           MARK DeSAULNIER, California
BRUCE WESTERMAN, Arkansas            DANIEL LIPINSKI, Illinois
LLOYD SMUCKER, Pennsylvania          GRACE F. NAPOLITANO, California
PAUL MITCHELL, Michigan              PETER A. DeFAZIO, Oregon (Ex 
JOHN J. FASO, New York, Vice Chair   Officio)
JASON LEWIS, Minnesota
BILL SHUSTER, Pennsylvania (Ex 
Officio)

                                 (iii)
































                                CONTENTS

                                                                   Page

Summary of Subject Matter........................................   vii

                               WITNESSES
                                Panel 1

Hon. Denny Heck, a Representative in Congress from the State of 
  Washington: \1\

    Testimony....................................................     4
Hon. Derek Kilmer, a Representative in Congress from the State of 
  Washington: \1\

    Testimony....................................................     4

                                Panel 2

Hon. Robert L. Sumwalt III, Chairman, National Transportation 
  Safety Board:

    Testimony....................................................     7
    Prepared statement...........................................    54
    Responses to questions for the record from the following 
      Representatives:

        Hon. Jason Lewis of Minnesota............................    61
        Hon. Peter A. DeFazio of Oregon..........................    61
        Hon. Mark DeSaulnier of California.......................    63

            Attachment 1.........................................    65
            Attachment 2.........................................    69
            Attachment 3.........................................   117
            Attachment 4 \2\
Juan D. Reyes III, Chief Counsel, Federal Railroad 
  Administration:

    Testimony....................................................     7
    Prepared statement...........................................   125
    Responses to questions for the record from the following 
      Representatives:

        Hon. Jeff Denham of California...........................   135
        Hon. Peter A. DeFazio of Oregon..........................   140
        Hon. Jason Lewis of Minnesota............................   148
        Hon. John Garamendi of California........................   150
        Hon. Daniel Lipinski of Illinois.........................   151
        Hon. Rick Larsen of Washington...........................   153
        Hon. Michael E. Capuano of Massachusetts on behalf of 
          Hon. Denny Heck of Washington..........................   156
Edward R. Hamberger, President and Chief Executive Officer, 
  Association of American Railroads:

    Testimony....................................................     7
    Prepared statement...........................................   163
    Responses to questions for the record from the following 
      Representatives:

        Hon. Garret Graves of Louisiana..........................   173
        Hon. Peter A. DeFazio of Oregon..........................   174
        Hon. Daniel Lipinski of Illinois.........................   177
        Hon. Rick Larsen of Washington...........................   177

----------
\1\ Congressmen Denny Heck and Derek Kilmer did not submit written 
statements for the record.
\2\ Attachment 4 is of significant volume (302 pages) and is therefore 
posted online at govinfo.gov (the Government Publishing Office's 
standards-compliant preservation repository) at https://
www.govinfo.gov/content/pkg/CPRT-115HPRT30305/pdf/CPRT-
115HPRT30305.pdf.
Richard Anderson, President and Chief Executive Officer, Amtrak:

    Testimony....................................................     7
    Prepared statement...........................................   178
    Responses to questions for the record from the following 
      Representatives:
        Hon. Jeff Denham of California...........................   187
        Hon. Peter A. DeFazio of Oregon..........................   188
        Hon. John J. Faso of New York............................   194
        Hon. Michael E. Capuano of Massachusetts on behalf of 
          Hon. Denny Heck of Washington..........................   194
Paul P. Skoutelas, President and Chief Executive Officer, 
  American Public Transportation Association:

    Testimony....................................................     7
    Prepared statement...........................................   197
    Responses to questions for the record from the following 
      Representatives:

        Hon. Peter A. DeFazio of Oregon..........................   207
        Hon. Daniel Lipinski of Illinois.........................   208
        Hon. Rick Larsen of Washington...........................   209
John P. Tolman, Vice President and National Legislative 
  Representative, Brotherhood of Locomotive Engineers and 
  Trainmen:

    Testimony....................................................     7
    Prepared statement...........................................   211
    Responses to questions for the record from the following 
      Representatives:

        Hon. Peter A. DeFazio of Oregon..........................   216
        Hon. Rick Larsen of Washington...........................   218

          PREPARED STATEMENTS SUBMITTED BY MEMBERS OF CONGRESS

Hon. Peter A. DeFazio of Oregon..................................    40
Hon. Rick Larsen of Washington...................................    45
Hon. Pramila Jayapal of Washington...............................    48
Hon. Adam Smith of Washington....................................    52

                       SUBMISSIONS FOR THE RECORD

Hon. Michael E. Capuano, a Representative in Congress from the 
  State of Massachusetts, submission of the Democratic summary of 
  hearing subject matter.........................................   219
Hon. Rick Larsen, a Representative in Congress from the State of 
  Washington, submission of the following two letters:

    Letter of January 18, 2018, to Federal Railroad 
      Administration Acting Administrator Heath Hall from Hon. 
      Derek Kilmer, a Representative in Congress from the State 
      of Washington, et al.......................................   226
    Letter of January 10, 2018, to U.S. Department of 
      Transportation Secretary Elaine L. Chao from Hon. Sean 
      Patrick Maloney, a Representative in Congress from the 
      State of New York, et al...................................   228
Hon. Brian Babin, a Representative in Congress from the State of 
  Texas, submission of article entitled, ``Surveillance Cameras 
  Made by China Are Hanging All Over the U.S.,'' by Dan Strumpf 
  et al., Wall Street Journal, Nov. 12, 2017.....................   230
Letter of January 30, 2018, to the Chairmen and Ranking Members 
  of the Committee on Transportation and Infrastructure and the 
  Subcommittee on Railroads, Pipelines, and Hazardous Materials, 
  from Hon. Denny Heck and Hon. Derek Kilmer, Representatives in 
  Congress from the State of Washington..........................   239
Letter of December 28, 2017, to U.S. Department of Transportation 
  Secretary Elaine L. Chao from Hon. Peter A. DeFazio, a 
  Representative in Congress from the State of Oregon, et al.....   241

                        ADDITIONS TO THE RECORD

Letter of February 27, 2018, to Bill Shuster, Chairman, and Peter 
  A. DeFazio, Ranking Member, Committee on Transportation and 
  Infrastructure, from David B. Kutrosky, Managing Director, 
  Capitol Corridor Joint Powers Authority, and Chair, States for 
  Passenger Rail Coalition, Inc..................................   243

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


 
OVERSIGHT OF POSITIVE TRAIN CONTROL IMPLEMENTATION IN THE UNITED STATES

                              ----------                              


                      THURSDAY, FEBRUARY 15, 2018

                  House of Representatives,
Subcommittee on Railroads, Pipelines, and Hazardous 
                                         Materials,
            Committee on Transportation and Infrastructure,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 9:31 a.m. in 
room 2167, Rayburn House Office Building, Hon. John J. Faso 
(Vice Chairman of the subcommittee) presiding.
    Mr. Faso. The subcommittee will come to order.
    Without objection, the Chair is authorized to declare a 
recess at any time.
    I ask unanimous consent that members not on the 
subcommittee be permitted to sit with the subcommittee at 
today's hearing and ask questions.
    Without objection, so ordered.
    Good morning and welcome to the Subcommittee on Railroads, 
Pipelines, and Hazardous Materials. Before we proceed with our 
hearing, I would like to extend our deepest sympathies to those 
impacted by the recent rail accidents across the United States.
    Today's hearing focuses on the implementation of Positive 
Train Control across the United States. And as we have seen, we 
are in need of an update. PTC is a complex system with a 
challenging implementation process for the railroad industry. 
Despite these challenges, safety is always a top priority, and 
we must investigate and find solutions to implementation 
obstacles, and that is the purpose of this hearing today.
    I look forward to hearing from our witnesses today 
regarding the implementation status of PTC across the United 
States.
    I would now like to recognize Ranking Member Michael 
Capuano of Massachusetts for 5 minutes to make any opening 
statement which he may have.
    Mr. Capuano. Thank you, Mr. Chairman. It takes a guy named 
Faso to be able to pronounce my name. Thank you.
    [Laughter.]
    Mr. Capuano. Mr. Chairman, I ask unanimous consent to 
include the committee Democratic staff in today's hearing 
record.
    Mr. Faso. Without objection, so ordered.

        [The Democratic summary of subject matter is on pages 219-225.]

    Mr. Capuano. Thank you, Mr. Chairman. Mr. Chairman, I 
generally keep my opening remarks brief because we are here 
today to catch up on PTC to see the results, see how it has 
impacted directly individual people, or its lack thereof, and 
to hear from the industry where they are on advancing it.
    With all the problems we still have on this issue, we are 
making progress. Now, many of us would like that progress to be 
faster and cleaner and quicker and all that, but at least we 
are doing something.
    At the same time, it cannot be--I don't think it should go 
unsaid today that this Congress has taken absolutely no action 
whatsoever to even try to address the gun violence in this 
country. The tragedy that we suffered in this country yesterday 
is unspeakable. It should be unacceptable to every single 
American. And for us to do nothing--nothing--should be 
angering, as far as I am concerned.
    At least on this issue, with PTC, we are doing something. 
Nothing is not an answer. And with that I yield back the 
remainder of my time.
    Mr. Faso. I would now like to recognize the chairman of the 
full committee, Mr. Shuster.
    Mr. Shuster. Thank you very much, Mr. Faso and Ranking 
Member Capuano, for holding this hearing today. Thanks to our 
Members that are here today, show an interest, obviously, 
because tragedies occurred in your States and other places 
around the country.
    Safety is the number one priority of this committee, and 
the most important task of the Department of Transportation. 
This committee and the Department of Transportation have always 
remained focused on efforts to improve rail safety, and 
Positive Train Control is one of the most ambitious, complex, 
costly enhancements the railroad industry has ever undertaken.
    As early as 2012, GAO [Government Accountability Office] 
and FRA [Federal Railroad Administration] were reporting that 
railroads would not make the 2015 deadline. In 2015, Congress 
passed the bipartisan Surface Transportation Extension Act of 
2015, which extended the deadline to December 31st of 2018 with 
wide support from industry, Government, and labor. At the time, 
we were hopeful this would help the railroads meet their 
implementation milestones.
    And today I look forward to getting an update on the status 
of PTC implementation, and learn what the other major 
challenges are that still remain for the railroads.
    When Congress extended the PTC deadline, we were informed 
of issues the railroad faced. Throughout the implementation 
process, railroads have faced a complicated, complex set of 
challenges. One of the biggest issues was the ability to obtain 
spectrum.
    Both FRA and GAO have published multiple reports 
articulating the other obstacles faced, such as the integration 
of field testing of PTC components, the development of PTC 
technology, issues with availability of suppliers of PTC 
technology, radio interference, and interoperability issues. 
Today we are here to see if those issues, among others, still 
linger for the railroads.
    So I look forward to hearing from our colleagues today, but 
also the folks who represent Government and industry, to give 
us a view of what is happening out there.
    And, with that, I yield back.
    Mr. Faso. Thank you, Mr. Chairman. Now I would like to 
recognize the ranking member of the committee, Mr. DeFazio, for 
an opening statement.
    Mr. DeFazio. Thank you, Mr. Chairman. Let's dial back to 
2005, a Norfolk Southern freight train transporting chlorine in 
Graniteville, South Carolina, diverted onto an adjacent track 
where it hit a parked train near a textile manufacturing plant. 
Nine people were killed, six workers at the plant. Five hundred 
people were injured, fifty-four hundred evacuated. This was 
preventable with PTC.
    This committee held a hearing on this crash in 2007, just 
prior to passing a bipartisan bill in 2008--10 years ago--to 
mandate PTC implementation.
    Graniteville is eerily similar to the one that just 
occurred in Cayce, South Carolina. The switch left in the wrong 
position. The train diverted onto the wrong track, hit a parked 
CSX train. Again, no signals indicating the switch position was 
open. And again, totally preventable with PTC.
    So was the Amtrak accident in DuPont, Washington. You know, 
we had PTC on the train, on the track, but it wasn't yet 
operable. I have introduced legislation that will say that no 
new section of track can be utilized by Amtrak until PTC is 
operable. That is after the fact, unfortunately. That, again, 
totally preventable.
    For 50 years now--half a century--NTSB has issued one 
recommendation after another for the FRA to require PTC. Over 
those 50 years, 153 accidents preventable with PTC. They 
resulted in 301 fatalities, 6,700 injuries, and yet we are not 
there yet.
    The last time we held a hearing on this was 2015. We have a 
law that goes back to 2008. But we are not fully implemented. I 
hear a lot about the cost and the complexity. Let's think about 
the cost in lives that have been lost and could be lost in the 
near future because of the lack of PTC.
    Some, a number of our Class I's and other freight and some 
commuter railroads, embraced PTC early on and have made 
progress, and I congratulate those who are going to make the 
deadline. Others are close. Some aren't very far along. In 
fact, some of the commuter railroads, in fact, I understand--
New Jersey hasn't even started--you know, that they are--that 
they won't qualify under any conditions, even with the most lax 
Administrator in history--we don't have an Administrator--to 
meet the minimum requirements to get an extension beyond 2018.
    I have heard that some are inquiring as to whether or not 
Congress might extend the deadline beyond 2020. We are going to 
kill more people because you are not doing your job? No. We are 
not going to extend PTC again, if I have anything to say about 
it.
    Yes, it is complicated. But, I mean, again, 50 years ago--
this is when it was first recommended. A year later we landed a 
man on the moon. We, you know--look at where we are now, with 
all sorts of advances in technology. And yet we don't have PTC.
    You know, I have recommended to the administration that 
they include grant funding in their infrastructure plan to help 
some of the commuter railroads and others who are non-profits, 
having problems meeting these deadlines. Of course, there have 
been no allocations and no action.
    You know, I don't know also how we can get a budget out of 
the administration where it actually cuts funding for FRA's 
oversight and enforcement of PTC by 50 percent. Fifty percent 
cut. Hopefully that cut is going nowhere in the United States 
Congress or in the omnibus negotiations.
    There is a safety and operations cut by 30 percent, a 37-
percent cut to automated track inspection. It doesn't seem that 
this administration is serious about safety, despite the lives 
lost recently. I hope this committee today in this hearing and 
with these witnesses can refocus the urgency of this matter, 
and focus the administration on this, and hopefully we will see 
full implementation by the end of 2018.
    With that, I yield back the balance of my time.
    Mr. Faso. I would now like to welcome our first panel, our 
distinguished colleagues from the State of Washington, Mr. Heck 
and Mr. Kilmer. Please proceed with your statement.
    I ask unanimous consent that our witnesses' full statement 
be included in the record. And after receiving testimony from 
our first panel, we will proceed to our second panel for 
testimony.
    Without objection, so ordered.

TESTIMONY OF HON. DENNY HECK, A REPRESENTATIVE IN CONGRESS FROM 
       THE STATE OF WASHINGTON; AND HON. DEREK KILMER, A 
    REPRESENTATIVE IN CONGRESS FROM THE STATE OF WASHINGTON

    Mr. Heck. Thank you, Mr. Chairman and Ranking Member 
Capuano. Thank you for holding this hearing today, and for all 
of your assistance in the wake of this unthinkable tragedy 
which struck in my district on the morning of December 18th.
    It was a quiet Monday morning when Amtrak Cascades 501 
derailed as it approached the Mounts Road bridge in DuPont, 
Washington. The locomotive and passenger cars were sent flying 
down onto Interstate 5 below at nearly 80 miles per hour, into 
the path of motorists who were going about their morning 
commute. Three people were killed in that commute, three 
passengers on that train: Jim Hamre, Zack Willhoite, and 
Benjamin Gran.
    Jim and Zack were my constituents. They were also fierce 
advocates--that is why they were on the train, which was the 
inaugural Amtrak service on the new Point Defiance Bypass. Jim 
was a retired civil engineer, while Zack worked for Pierce 
Transit. As a board member of the Rail Passengers Association, 
Jim had actually visited me in Washington, DC, sat in my office 
to advocate for expanding passenger train service. The entire 
South Puget Sound continues to mourn the loss of these three 
individuals.
    But they were not the only victims of this tragedy. Seventy 
passengers and motorists were injured. And, by the way, that 
included a delightful young woman named Maddie, who happens to 
be the niece of one of my staff members.
    It is only thanks to the heroic work of the first 
responders and bystanders and doctors that the injured are 
still with us today. And I want to particularly commend the 
Active Duty servicemembers and civilians at nearby Joint Base 
Lewis-McChord, who rushed to help.
    We are here today because we know this tragedy could have 
been avoided if Positive Train Control was active on the route. 
The NTSB has recommended that railroads install PTC for nearly 
50 years. I am glad we have NTSB Chairman Robert Sumwalt with 
us today, and I want to thank them for all of their assistance.
    But despite these consistent warnings, there has been an 
absolute failure to heed them. And it is a collective failure 
on the part of the Federal Railroad Administration, but also on 
the part of Congress, which has failed to meaningfully fund PTC 
implementation and enforce deadlines.
    There are no excuses to be made here today. The Amtrak 
Cascades crash was preventable, as were over 150 other rail 
accidents the NTSB has investigated. That is why I support 
legislation from Ranking Members DeFazio and Capuano, which 
would provide the funding railroads across the country need to 
complete PTC on their routes.
    I met on Monday with the head of the Washington State 
Department of Transportation, Roger Millar, and I was glad to 
hear that the Amtrak Cascade route is on schedule to have PTC 
implementation by the current deadline of December 2018. And 
the same goes for the freight railroads in my district.
    But that is not the case for many railroads across our 
country. That is why, most importantly, the bill would prevent 
the U.S. Department of Transportation from extending the PTC 
deadline. Passing this legislation would send a clear message 
that there is no need for us ever to have this conversation 
again. No delays, no excuses.
    For Jim Hamre, Zack Willhoite, and Benjamin Gran, I ask 
this committee and the Congress to act to prevent a crash like 
Amtrak Cascades 501 from ever happening in this country again.
    Thank you, Mr. Chairman.
    Mr. Faso. Thank you, Mr. Heck.
    Mr. Kilmer, you are now recognized.
    Mr. Kilmer. Thank you, Mr. Chairman. I want to start by 
thanking you and Ranking Members Capuano and DeFazio for 
holding this important hearing and for inviting me to testify.
    I had just taken the redeye back from--back to Washington, 
DC, and was trying to catch a quick nap when I got a call from 
a member of my team. The Amtrak 501 Cascades Express had 
derailed from an overpass over Interstate 5 at one of the 
busiest sections of our State's busiest freeway at rush hour. 
It was a worst-case scenario. The footage from news helicopters 
was harrowing. People were stopping on the highway and jumping 
into dangling, twisted train cars to offer their help.
    And I immediately thought of my family, my wife, who works 
for the State of Washington, and regularly goes to Olympia. My 
first thought was was she on the highway, was she safe?
    Just days earlier I had cut the ribbon on the new station 
in Tacoma in my district that would service the train on this 
route. And it felt like a bad dream.
    So many families had the same feeling that I had that day. 
Too many families had loved ones who were hurt. Three families 
never saw their sons again. Ben Gran, Jim Hamre, and Zack 
Willhoite, their lives could have been saved by Positive Train 
Control.
    I went down to the site on my first day back in State, and 
you could still see the marks in the track, the fingerprints of 
the crushing power 14 train cars traveling way too fast etch 
into metal as they leave the track. The NTSB said Positive 
Train Control would have prevented this and so many other train 
crashes that have become all too frequent.
    In 2018 no American should die in a preventable train 
accident.
    December 31, 2018, that is the deadline Congress gave the 
Nation's railroad industry to put this lifesaving technology on 
the tracks. The country has 319 days, and not a second more, 
because this deadline matters. As the committee knows, Congress 
has been working since 2008 to fully implement PTC nationwide, 
and there are railroads who have shown it is possible to meet 
this deadline.
    BNSF, one of the largest railroad operators in this 
country, has fully installed Positive Train Control on all 
11,570 miles of the track that they are responsible for, and it 
is operable on all 5,000 of their locomotives. They have shown 
that, with the right investments and oversight, this can be 
done.
    But the country won't get there if this body doesn't take 
this deadline seriously. So thank you, Chairman and Ranking 
Members, for taking up our request to hold this hearing today. 
I also want to thank the ranking members for their leadership 
on H.R. 4766, a bill that would provide $2.5 billion in grants 
to help the railroads to put Positive Train Control on the 
tracks. I am proud to cosponsor that bill, and I hope the 
committee will act on it soon.
    But funding is just one part of the solution. We also need 
the Federal Railroad Administration to step up and ensure that 
the railroads are making progress. But I have serious concerns 
about the agency's capacity to do so, given the recent 
resignation of the interim Administrator.
    Last month my good friend, Mr. Heck, and I led a letter to 
then-acting Administrator Heath Hall, asking for an update on 
the status of PTC implementation nationwide, and the steps he 
would take to ensure all of our railroads are on track to meet 
the deadline.

        [The letter of January 18, 2018, to Federal Railroad 
        Administration Acting Administrator Heath Hall from Congressman 
        Derek Kilmer et al. is on pages 226-227.]

    Mr. Kilmer. Mr. Chairman, we are still waiting for their 
response. So I hope today's hearing will provide those answers 
because if that conversation doesn't happen, I am afraid this 
won't get done.
    Americans deserve to know the trains they are taking to 
work or to visit loved ones are safe. They deserve a Government 
that is willing to work together with each other and with the 
railroads to make this happen. So thank you for accepting our 
request to hold this hearing and for starting that work today.
    Mr. Faso. Gentlemen, thank you for your testimonies. Your 
comments have been very helpful and thought-provoking.
    And thank you, Mr. Heck, in particular, for recounting the 
issues and the lives of those who had been lost on that tragic 
day. So I appreciate that.
    I welcome the second panel.
    Mr. DeFazio. Mr. Chairman, while we are getting rearranged 
here, if I could have unanimous consent to speak for a minute 
out of order here, I----
    Mr. Faso. So ordered.
    Mr. DeFazio. I have had kind of a tough week, as you can 
tell from looking at me. And so I missed the fact that we do 
finally have an individual with experience appointed as head of 
the FRA, Mr. Batory. So I welcome him there. He has got a tough 
job ahead of him. And I hope that the committee, as soon as he 
can get settled in, will have him down to discuss this and 
other important issues.
    Mr. Faso. I thank the gentleman. I would now like to 
welcome our second panel of witnesses.
    On our panel today is Mr. Robert Sumwalt, Chairman of the 
National Transportation Safety Board; Mr. Juan Reyes III, chief 
counsel of the Federal Railroad Administration; Mr. Richard 
Anderson, chief executive officer of Amtrak; Mr. Edward 
Hamberger, president and chief executive officer of the 
Association of American Railroads; Mr. Paul Skoutelas, 
president and chief executive officer, American Public 
Transportation Association; and Mr. John Tolman, vice president 
and national legislative representative of the Brotherhood of 
Locomotive Engineers and Trainmen.
    I ask unanimous consent that our witnesses' full statements 
be included in the record.
    Without objection, so ordered.
    Since your written testimony has been made a part of the 
record, the subcommittee would request that you limit your oral 
testimony to 5 minutes, giving us more time for questions.
    Mr. Sumwalt, you may proceed.

  TESTIMONY OF HON. ROBERT L. SUMWALT III, CHAIRMAN, NATIONAL 
TRANSPORTATION SAFETY BOARD; JUAN D. REYES III, CHIEF COUNSEL, 
FEDERAL RAILROAD ADMINISTRATION; EDWARD R. HAMBERGER, PRESIDENT 
AND CHIEF EXECUTIVE OFFICER, ASSOCIATION OF AMERICAN RAILROADS; 
   RICHARD ANDERSON, PRESIDENT AND CHIEF EXECUTIVE OFFICER, 
   AMTRAK; PAUL P. SKOUTELAS, PRESIDENT AND CHIEF EXECUTIVE 
 OFFICER, AMERICAN PUBLIC TRANSPORTATION ASSOCIATION; AND JOHN 
      P. TOLMAN, VICE PRESIDENT AND NATIONAL LEGISLATIVE 
    REPRESENTATIVE, BROTHERHOOD OF LOCOMOTIVE ENGINEERS AND 
                            TRAINMEN

    Mr. Sumwalt. Thank you, Mr. Chairman. Good morning. Vice 
Chairman Faso, Ranking Member Capuano, members of the 
subcommittee, thank you for having us.
    Since the enactment of the Rail Safety Improvement Act of 
2008, the NTSB has completed investigations of 22 accidents 
that could have been prevented by PTC. Together, these 
accidents have resulted in 23 deaths, over 300 injuries, and 
over $126 million in property damage. And, of course, we are 
currently investigating two additional recent accidents that 
could have been prevented by PTC.
    As you have heard, 2 months ago, on December the 18th, 
Amtrak train 501 derailed onto Interstate 5 near DuPont, 
Washington. The train was traveling at 78 miles an hour, around 
a curve where the speed limit was 30 miles per hour. Our 
investigation is ongoing. However, this is precisely the type 
of accident that PTC is intended to prevent. If PTC had been 
operational, it would have detected the overspeed and taken 
action to stop the train before the accident.
    Most recently, early last week, a southbound Amtrak train 
unexpectedly entered a siding near Cayce, South Carolina, and 
collided with a stationary CSX freight train. Investigators 
found that the track switch was lined and locked in a position 
that would divert southbound trains into that siding.
    The investigation will, among other things, focus on why 
the rail switch was aligned for that siding, rather than the 
track that the Amtrak was intended to operate over. A fully 
operational PTC system is designed to prevent accidents where 
switches are left in the wrong position.
    At the time of the accident, train signals that govern 
train movement were out of service due to signal upgrades. This 
morning the NTSB issued an urgent safety recommendation to the 
FRA, and we are calling for the FRA to issue an emergency order 
to put in place procedures to mitigate hazards when trains are 
operating during signal suspension. And I will be happy to 
discuss this further if there are questions.
    A decade ago the Congress called for PTC to be installed by 
the end of 2015. However, the railroads, despite their efforts, 
the railroads indicated they would not be able to meet that 
deadline. So Congress extended that deadline until the end of 
this year. Now data provided to the FRA by railroads indicates 
that many of the Nation's railroads will not meet that deadline 
for fully operational PTC, resulting in up to 2 years of 
additional delay.
    For nearly half a century the NTSB has investigated 
numerous train collisions and derailments caused by human 
failures. And these accidents could have been prevented by PTC. 
Therefore, the NTSB is extremely concerned about any further 
delays to this lifesaving technology.
    Quite simply, for each day that passes without PTC, we are 
at continued risk for preventable PTC accidents. And, from a 
safety perspective--and that is the NTSB's perspective--from a 
safety perspective, that risk is unacceptable.
    Thank you for your time, and I will be glad to answer 
questions.
    Mr. Faso. Thank you, Mr. Sumwalt.
    Mr. Reyes, you may proceed.
    Mr. Reyes. Vice Chairman Faso, Chairman Shuster, Ranking 
Member Capuano, Ranking Member DeFazio, and members of the 
subcommittee, thank you for inviting me to discuss the Federal 
Railroad Administration's oversight of Positive Train Control 
implementation in the United States.
    In light of the recent accidents, much of the Nation's time 
and attention has been rightly focused on ensuring that all 
critical safety measures are in place within our rail system. 
Safety is FRA's top priority. Under the leadership of Secretary 
Elaine L. Chao, FRA develops and enforces safety regulations, 
invests in rail infrastructure, and conducts research and 
development to advance innovation.
    PTC is an advanced safety system designed to prevent 
certain types of accidents. For example, this technology can 
prevent a train from passing a stop signal or moving through an 
improperly aligned switch. Currently, 41 railroads are subject 
to the statutory PTC mandate, including 7 Class I railroads, 30 
commuter and intercity passenger railroads, and 4 short line 
railroads.
    PTC systems are being implemented on approximately 60,000 
miles of the 140,000-mile national rail network. The Rail 
Safety Improvement Act of 2008 mandated PTC system 
implementation by December 31, 2015. In late 2015, the House 
and Senate passed the Positive Train Control Enforcement and 
Implementation Act and the FAST Act. These acts extended the 
deadline for full implementation of PTC systems to at least 
December 31, 2018.
    These acts also allow railroads to request an alternative 
schedule with a deadline no later than December 31, 2020. The 
railroad must submit a written request to FRA to demonstrate 
that it has met the statutory criteria for additional time. The 
FAST Act prohibits FRA from requiring railroads to fully 
implement PTC systems by December 31, 2018.
    FRA considers full PTC implementation to mean that an FRA 
certified and interoperable system has been fully installed and 
is in operation by the host and required tenant railroads on 
all route miles subject to the mandate.
    Throughout 2017, FRA continued to take many actions to 
provide technical assistance to help railroads implement PTC 
systems in a timely and safe manner. On December 27, 2017, 
Secretary Chao issued a letter to all 41 railroads stressing 
the urgency and importance of implementing PTC systems and 
meeting the statutory deadline. Since December 2017, myself and 
FRA leadership have met individually with each railroad subject 
to the PTC mandate to ensure PTC systems are being implemented 
as efficiently as possible, and to identify any challenges the 
railroads continue to experience.
    During FRA's recent meetings, railroads commonly conveyed 
some ongoing challenges, including: a limited number of PTC 
system vendors and suppliers, technical and reliability issues 
with PTC system hardware and software, lack of progress by 
tenant railroads on equipping locomotives with PTC, delays in 
testing interoperability, and lengthy time to negotiate 
contracts with vendors and suppliers.
    Since 2009, FRA and DOT have awarded about $2.3 billion in 
grants and loans to support railroad PTC system implementation, 
including $925 million in grant funding and $1.35 billion in 
TIFIA [Transportation Infrastructure Finance and Innovation 
Act] and RRIF [Railroad Rehabilitation and Improvement 
Financing] loans.
    FRA has a task force of career employees and contractors 
dedicated to PTC who support railroad's implementation of PTC 
systems. FRA is also recruiting additional staff to help manage 
the surge as the deadline approaches.
    In conclusion, railroad's successful implementation of PTC 
systems is a top priority for the Department and FRA. Given the 
complexity of implementing these lifesaving systems, it is 
imperative that the railroads and suppliers focus their 
attention on meeting the congressional deadline. I appreciate 
the committee's assistance in ensuring that our Nation's 
railroads implement this rail safety technology in a timely 
manner.
    Thank you, Mr. Chairman, for the opportunity to testify. I 
am happy to answer any questions.
    Mr. Faso. Thank you, Mr. Reyes.
    Mr. Hamberger, you are now recognized.
    Mr. Hamberger. Thank you, Vice Chairman Faso, Mr. Capuano, 
Mr. DeFazio, members of the subcommittee. Thank you for the 
opportunity to appear before you today to discuss Positive 
Train Control and the progress of implementation of that 
technology across the U.S. rail network.
    First I want to reaffirm the rail industry's commitment to 
implementing PTC, which we can all agree will, in fact, add an 
important layer of safety to the Nation's railways. My 
appearance today is specifically focused on AAR's Class I 
freight railroads, their PTC progress to date, how they are 
working to get it right, and when we are going to complete the 
job.
    On all fronts the Class I railroads have made tremendous 
progress. By the end of 2017, the vast majority of installation 
was complete. Seventy-eight percent of locomotives were 
equipped with PTC. Ninety-three percent of wayside interface 
units were installed. Ninety-seven percent of radio towers 
installed. Eighty-seven percent of required employee training 
done.
    Furthermore, at the end of 2017, the Class I railroads 
already had in operation more than 30,000 miles, 56 percent of 
the required PTC network. As the law clearly states, by the end 
of 2018 each Class I railroad is required to complete the 
installation of all wayside, back office, and locomotive 
hardware required for PTC. Each Class I railroad is required to 
have implemented PTC on at least 51 percent of its miles or 
territories, and all Class I railroads will meet or exceed this 
statutory requirement.
    But, as I mentioned, not only do you have to install it, 
you have to make sure that it works. PTC development has been 
an immensely complex undertaking from day one. Railroads have 
focused on developing and testing technology that would meet 
the RSIA [Rail Safety Improvement Act] requirements, especially 
nationwide interoperability. From developing the central 
software and hardware, rigorous and repeated testing is the 
only way to ensure this system works as intended.
    In addition to initial testing in a simulated laboratory 
environment, these components must be installed and exposed to 
day-to-day operations to verify that each individual part and 
the system as a whole will function properly. As this 
subcommittee knows, we don't operate in a laboratory; we 
operate in various climates and weather conditions outside, 
across the country.
    When there is a failure of even a single PTC component, 
trains are not able to operate normally on affected rail lines 
until the failure is corrected, a situation railroads are 
currently facing as PTC is rolled out. The railroads are 
working hard to limit negative impacts on their customers, both 
passenger and freight, but this, unfortunately, will be a fact 
of life, particularly until the system fully matures.
    Additionally, it is common for one railroad's locomotives 
to operate on another railroad's tracks, and PTC systems must 
be fully interoperable across all the Nation's railroads--
again, including passenger and freight. This adds another layer 
of complexity to the testing. Ensuring this interoperability is 
no easy task, and all railroads will continue to resolve 
challenges that will inevitably arise, and which Congress 
anticipated and provided for in its 2015 law.
    In light of this law, it is critical for FRA to clarify and 
apply its regulations, not updated since the passage of the 
2015 law, to account for the fact that different railroads will 
meet full implementation at different times. After all, the 
intent of the early adopter provision was to encourage each 
railroad to achieve full implementation as soon as practicable.
    [Slide]
    Mr. Hamberger. So what can we expect in the future to 
complete the job? By the end of 2018, each Class I railroad 
will have completed PTC installation: 100 percent of wayside, 
back office, and locomotive hardware installed; 100 percent of 
spectrum in place; 100 percent of required employee training 
complete. When it comes to route mile operations, approximately 
80 percent, or over 40,000 miles--80 percent of all PTC-
required network miles will be in operation by the end of this 
year.
    While several Class I railroads plan to be fully 
implemented by the end of 2018, all Class I railroads will be 
100 percent implemented no later than 2020.
    The bottom line is each day the PTC footprint is expanding, 
meaning that each day risk is being reduced on the Nation's 
rail network.
    I look forward to answering your questions.
    Mr. Faso. Thank you, Mr. Hamberger.
    Mr. Anderson, you may proceed.
    Mr. Anderson. Thank you, Mr. Chairman. And thank you, 
Ranking Member and members of the committee, for giving me the 
opportunity to speak to you today. My name is Richard Anderson, 
and I started on January 1 at Amtrak as the president and CEO, 
following my tenure as being co-CEO since last July under Wick 
Moorman.
    Previously, I served over 17 years as the CEO of Delta Air 
Lines, the CEO of Northwest Airlines, and the chief operating 
officer of Northwest Airlines. Previously, I also served as the 
president of the commercial businesses of United Health Group, 
and I would note I started as a felony prosecutor in Houston, 
Texas.
    After 45 days on the job as the only Amtrak CEO without a 
background in rail, I have a novel perspective. While many may 
have doubted in 1971, as I look at the history of Amtrak, that 
it would be a growing business and that passenger rail would be 
in vogue today, it is. And, as congestion grows in major 
metropolitan areas and a generation of millennials prefer 
ridesharing to car ownership, Amtrak services and our 
infrastructure support hundreds of millions of rail 
transportation trips a year.
    But it is clear that during our 47-year history we have 
underinvested in rail, especially in aspects of the safety 
systems of passenger rail. Amtrak is operated, essentially, as 
a freight railroad carrying passengers, rather than a world-
class passenger transportation company. Our freight partners 
have done an incredibly good job significantly improving safety 
across all the Class I railroads, and the records show that.
    Mr. Faso. Mr. Anderson, could you try to speak more 
directly into the mic?
    Mr. Anderson. Oh, sure. That helps.
    Mr. Faso. That helps, yes.
    Mr. Anderson. Maybe it is a good idea to not----
    Mr. Faso. Can you repeat the part about the freight rail?
    Mr. Anderson. Yes, repeat the part about the freight 
railroads.
    Passenger rail must adhere to a much higher standard, 
because our trains will carry over 300 human beings. So we have 
to, as an industry, for passenger rail, establish a much higher 
level of care and a standard of care.
    With passenger rail now a significant component of our 
Nation's transportation system, we must increase our level of 
sophistication and investment, and we have begun this process 
at Amtrak, and we are going to bring this safety culture and 
the safety operations of aviation to passenger rail in America.
    The recent incidents--train 501 in DuPont, Washington; 
Crozet, Virginia; train 91 in Cayce, South Carolina--have 
conclusively demonstrated the pressing need for a Safety 
Management System [SMS] system at Amtrak. Toward that end we 
hired a new executive vice president and chief safety officer, 
Ken Hylander, reporting to me--he implemented SMS systems for 
me at two airlines--who will implement our SMS program as 
recommended by Chairman Sumwalt on November 15, 2017, in an 
NTSB report. An SMS system is a proactive management system 
that has been the foundation of the tremendous safety progress 
in aviation. This is a solved problem; we have to take our 
experiences, our data tools, and the capabilities from aviation 
and apply them to passenger railroads.
    Additionally, Amtrak continues to work on implementing many 
new specific safety measures, which I cover in written 
testimony. The most important is PTC. To start, we believe that 
PTC should ultimately be in place for all Amtrak routes. And as 
a matter of U.S. policy, PTC should be required for all 
passenger rail trips in America. That is a very big statement.
    Without PTC, the system is too vulnerable to single points 
of failure, many of which are dependent upon the memory of a 
single human being interacting with a big, complicated system. 
Crews must memorize routes, signals, landmarks, and other 
indicia of the external world when they qualify on a route. 
When an engineer loses situational awareness or forgets a rule, 
we have no systems to assist them and help them prevent that 
error. We built all those systems in aviation; we haven't built 
them in passenger rail. So PTC is a fundamental building block 
to building an SMS system.
    Amtrak has long been a leader in PTC. It is installed on 
nearly all of the Northeast Corridor today, the busiest 
railroad in America. We are set to complete PTC installation on 
the tracks and equipment we own or control by December 31, 
2018, the Federal deadline. We have great cooperation with our 
partner host railroads, particularly the Class I railroads.
    For those areas of our network where we do rely on others, 
we have to closely cooperate with them, because the host 
railroad, Amtrak, and the manufacturers of the equipment all 
have to cooperate to get the systems installed, tested, and 
working properly.
    It is an enormous and complicated undertaking for the 
industry and its suppliers, but we all share a sense of 
urgency. And having said that, it is now clear that Amtrak, 
FRA, Congress, and the various railroads are likely to confront 
scenarios where PTC is not yet operational by the end of the 
year.
    First, many routes outside the NEC [Northeast Corridor] 
will face a situation where the host railroads will apply to 
FRA for an alternative PTC implementation schedule. At Amtrak, 
that question raises for us whether, even if that alternative 
is approved, whether we will even operate.
    Second, there are host railroads that appear unlikely to 
achieve sufficient progress to apply for the alternative PTC 
implementation schedule. And for those segments, Amtrak will 
suspend operations.
    Third, a small portion of services operate on routes that 
have received FRA mainline track exclusions, which exempt them 
from the PTC requirements. We are newly reviewing under our SMS 
program our policy regarding these exclusions. And for those 
instances where we will not have PTC, even after the 12/31 
deadline--because it is not required by statute--we have a 
question about whether we are going to operate at all. And I 
doubt we will.
    Lastly, there may be railroads that operate over our NEC 
tracks which may not have sufficient PTC-commissioned rolling 
stock to operate normal services by the end of the year. Under 
the present rules, we cannot permit non-compliant equipment on 
our railroad after the deadline, and we are working with these 
railroads and the FRA to determine the path forward.
    Fortunately, Ron Batory is now the Administrator of the 
FRA, and he is doing a good job leading an effort to coordinate 
the work on behalf of all the railroads in America to get all 
the impediments out of the way, so that we can get as much of 
it done as we can.
    Taken together, I believe historic strides are being made, 
and everybody is working as hard as they can. I have great 
confidence in Amtrak's workforce. There is a lot of really 
hard-working people at Amtrak that want to do right. And I see 
across our company the desire to become the safest passenger 
railroad operation in the world. We owe you, our owners, 
nothing less; our customers, nothing less. Thank you.
    Mr. Faso. Thank you, Mr. Anderson.
    Mr. Skoutelas, you can proceed.
    Mr. Skoutelas. Vice Chairman Faso, Ranking Member Capuano, 
members of the subcommittee, thank you for the opportunity to 
testify today. I am Paul Skoutelas, president and CEO of the 
American Public Transportation Association, known as APTA. I 
have submitted a detailed, written statement, but want to 
highlight a few key points with you.
    First, I want to reiterate APTA's unequivocal commitment to 
safety, including Positive Train Control installation. Safety 
is APTA's number one priority. As a former transit agency CEO, 
I know that safety is more than an operating principle and a 
promise to our riders. It is a core value of every public 
transportation professional.
    APTA is an industry-recognized standards development 
organization. We created the rail transit safety audit program 
in 1989, which all commuter rail agencies' safety management 
program plans are based upon. As an association, APTA publicly 
supported the concept of PTC, even before the Rail Safety 
Improvement Act of 2008 was enacted.
    We have also brought together key stakeholders through PTC 
technical summits, user groups, and other programming that we 
do at APTA meetings and conferences, foremost in an effort to 
tackle the complexities of installing PTC. These efforts have 
helped facilitate implementation by sharing information and 
coordinating efforts to solve the issues as they arise.
    Commuter railroads have faced and continue to face a 
variety of complex challenges in installing PTC systems. PTC 
was still being developed in 2015, and only after the 
technology was available could railroads begin installing and 
testing the systems, while concurrently providing service to 
millions of Americans.
    A one-size-fits-all approach to implementation does not 
exist when it comes to PTC installation. This means that each 
passenger rail system needs to build its own unique PTC 
solution, which has created challenges and delays. Many 
commuter railroads have done a commendable job overcoming 
significant hurdles, including unique technical obstacles, 
limited access to skilled professionals and suppliers 
nationwide, very complex operating environments, and, of 
course, tight budgets.
    With so many agencies implementing PTC at the same time, 
the lack of expertise and resources in relevant fields has 
limited the ability to expedite implementation at each stage of 
the process. To date, the full cost of implementation of PTC is 
estimated to be approximately $4 billion for commuter railroad 
agencies. This does not take into account future operating and 
maintenance costs, which are currently estimated to range from 
$80 million to $130 million, annually. Nor does it include the 
$90 billion of state-of-good-repair backlog facing public 
transportation systems today.
    This is a staggering number for publicly funded agencies 
that rely on Federal, State, and local funding, as well as 
passenger fares to operate their services. We request that 
Congress and the administration consider these costs and 
provide additional funding.
    The public transportation industry is also concerned that 
FRA may not have enough highly skilled staff to respond to the 
magnitude of documentation that is required for PTC approval, 
especially as we approach the end of 2018. APTA urges Congress 
to ensure FRA has the resources and technical staff available 
to facilitate PTC implementation.
    APTA continues its active role in support of PTC 
installation and implementation. We are committed to becoming a 
safer industry every day. In pursuit of this goal, APTA will 
continue its technical user group meetings and hosting various 
forums, which have proven to be indispensable to the industry. 
These sessions have brought a focus on lessons learned from 
those who are further along in implementation, and they work to 
establish common formats for critical submissions and actions, 
which will facilitate a faster review process by FRA.
    APTA will also continue making PTC implementation a key 
topic, an urgent topic, at its major meetings throughout the 
year.
    Let me close by saying the public transportation industry 
relies on public support and public trust. Our transit systems 
recognize that we must earn that support and trust every day. 
Public transportation generally, and commuter passenger rail 
specifically, are among the safest modes of transport. In fact, 
public transportation passengers are generally 40 to 70 times 
less likely to be in an accident than drivers and passengers in 
private automobiles.
    As an industry, we will continue to focus on safety, and 
continue to improve it every day. APTA is grateful for the work 
this committee has done to enhance safety in our Nation's 
railroads, and we applaud your efforts. We look forward to 
continuing to work with you and your staff on the critical PTC 
issues and on other issues facing the public transportation 
agencies.
    Thank you.
    Mr. Faso. Thank you, Mr. Skoutelas.
    Mr. Tolman, please proceed.
    Mr. Tolman. Vice Chairman Faso, Ranking Member Capuano, 
members of the committee, I appreciate the opportunity to 
testify today.
    As I sit here today, I am embarrassed, I am hurt, I am 
frustrated, and nearly distraught that we are here once again 
to discuss a major safety issue that was recommended a long, 
long time ago. I grew up in the railroad industry, and I truly 
am anguished when I hear again and again of an accident that 
could have been prevented by PTC.
    I was here in 2008 when you passed the Rail Safety 
Improvement Act. I testified in front of this committee on 
behalf of the membership. One of our member's parents was here, 
trying to educate Congress in hopes that their 28-year-old son, 
Chris Seeling, would not die in vain on January 6, 2005. He 
lost his life in an accident very similar to the recent 
accident in South Carolina that the NTSB said could have been 
prevented by PTC.
    You know, there is something in this room that we all can 
agree on without a doubt: nobody--nobody--should ever, ever go 
to work and not come home. It is our duty in this room, from 
this day forward, to make sure to work tirelessly to get this 
thing done.
    The NTSB told the industry as far back as 1968 to implement 
some form of technology, accident prevention technology. It was 
50 years ago. It took us less than 9 years to put a person on 
the moon, and the industry can't get this done?
    In fact, NTSB said in May of 2002, 40 to 60 accidents each 
year could be prevented by PTC--40 to 60 each year. The NTSB 
noted that from 1968 to 2015, PTC could have prevented 145 
major accidents that killed 288 people and injured 6,574 when 
the agency first had recommended the technology. Official 
damages have totaled hundreds of millions of dollars, not 
counting the economic and emotional burden borne by the victims 
and their families.
    These numbers do not include the recent accidents outside 
of Tacoma, Washington, that claimed 3 lives and injured 70 
people, or Cayce, South Carolina, a collision that killed a 
locomotive engineer, Michael Kempf, age 54, one of our members, 
and conductor Michael Cella, age 36, a SMART member, and 
injured 116 people. While the NTSB is still investigating these 
tragedies, they have stated publicly that PTC could have 
prevented both of these tragedies.
    Now, some might say that I am not being fair because there 
are railroads that are going to get this done by 2018, and I 
sincerely applaud those who do. But there are several others 
that won't get this done by the deadline.
    Mr. Chairman, if I may take an opportunity to mention a few 
other safety issues that the industry hasn't addressed, and the 
number one issue--unsafe issue--is fatigue. This issue is as 
old as everybody in this room. The Rail Safety Improvement Act 
amended U.S. Code title 49 by adding section 20156, titled the 
``Railroad Safety Risk Reduction Program,'' mandating that the 
FRA require the railroads to develop, jointly with labor, and 
update at least every 2 years, a fatigue management plan for 
safety-critical railroad employees to reduce the likelihood of 
accidents, incidents, injuries, and fatalities caused by 
fatigue. To date this process remains stalled. And to say we 
need to treat sleep apnea to fix fatigue is like the industry 
is treating a symptom and not the disease.
    Another issue I would like to mention is the Safe Freight 
Act, which would require freight railroads to have two-person 
crews on all freight trains, just like Congress mandated the 
airline industry do for safety.
    The conductor works to support the engineer in operating 
the train, observing all train and track conditions. Having two 
federally certified people in the locomotive cab is not a waste 
of money or an outdated practice. Even with sophisticated 
technology, nothing--nothing--can currently compare to having a 
trained human who can react to and manage potential dangerous 
situations onboard.
    Thank you, Mr. Chairman.
    Mr. Faso. Thank you, Mr. Tolman. I will begin questioning, 
and we will limit questions to 5 minutes.
    What I wanted to ask the panel--in your view, what are the 
single biggest obstacles we have to implementing this as a 
technology? Is it money? Is it the timeline that has already 
been extended? Perhaps starting with Mr. Reyes, if we could 
respond to that, because the public definitely is perplexed at 
this question.
    Mr. Reyes. OK, all right. As I stated in my----
    Mr. Faso. Pull the mic closer.
    Mr. Reyes. OK. As I stated in my opening, on December 27th, 
Secretary Chao sent a letter expressing her concern--the 
implementation of PTC, and the urgency that it get done.
    We met with 41 railroads, 30 commuter, 7 Class I railroads, 
and--as well as Amtrak. And what we are finding is that there--
the issues are really that there is a limited number of vendors 
and suppliers. The Class I and many of the commuter railroads 
share the same vendors.
    There are also issues with reliability. As the railroads 
are installing 100 percent of their equipment, and as they are 
setting their back offices up and doing service demonstration, 
they are finding that there are false stops. And so it takes a 
while to work out the problems with the software. So that can 
be--that is a problem.
    There has not been a lot of--there have not been many of 
the commuter railroads that have stated that money is really 
the issue. My agency, FRA, and the Federal Transit 
Administration have issued about $2.3 billion in loans and 
grants for the railroads for them to implement this. It seems 
to be more to do with these technical issues, as well as 
negotiating with--for the contracts, because a lot of the 
freight railroads started earlier than the commuter railroads, 
and now they are catching up, and they are having trouble 
getting the resources they need to get this done on time.
    Mr. Faso. OK. Mr. Hamberger?
    Mr. Hamberger. In addition to those challenges, the biggest 
single challenge yet left is interoperability. And, you know, 
we say that, we throw that word around. What do I mean by that?
    Chicago is, of course, the biggest example of it, but it 
occurs wherever more than one railroad is operating. You have 
railroad 1 locomotive operating on railroad 2's track, with a 
back office server owned by railroad 3. And each Class I 
railroad, of course, over the years, has developed its own 
dispatch system, its own IT platform. So all of those 
communications have to occur in real time, so that that 
locomotive knows whether or not it is exceeding its authority.
    And so it is that kind of melding together of all of the 
various railroad technologies that is the single biggest 
challenge. And that is why we are talking about 
interoperability testing with Amtrak as what is left to get 
done, and that is beginning--I believe in March, if I am not 
mistaken, Richard--so that--the goal being that the host 
railroads and Amtrak have worked through that, so that by the 
end of the year, hopefully everything has been worked through 
so that Amtrak is operating under PTC----
    Mr. Faso. And in the minute I have left, Mr. Anderson, 
could--because you are operating on other people's track, 
predominantly. I see that in the Hudson Valley line that I am 
the most familiar with. Can you discuss the interoperability 
issue, in terms of how Amtrak is trying to relate to this?
    And we saw the Metro-North accident that we had on that 
line, which you all operate over. Talk to us about the 
difficulties of operating on track that someone else owns.
    Mr. Anderson. Amtrak must have interoperability with 15 
different back office servers.
    Mr. Faso. Fifteen?
    Mr. Anderson. Fifteen. And we operate three different PTC 
systems, depending upon where we are. So, in Michigan we have 
one system. The corridor has another system. And then we 
operate on the Class I freights, we have a third system. So we 
have to federate with 15 different hosts' servers.
    Mr. Hamberger [in an aside to Mr. Anderson]. They don't 
know what federate means.
    Mr. Anderson. Make it interoperable. And so, it is the 
coordination with all of them.
    And then, on pieces of the corridor where you are talking 
about, we are hosted by Metro-North.
    Mr. Faso. Right.
    Mr. Anderson. So it depends upon who the host is, but we 
have to be able to do so with each one of them.
    I can tell you in all of the Amtrak-controlled pieces of 
the network, we will be ready. Let me give you the constraint--
I will do it quick.
    Mr. Faso. Be quick.
    Mr. Anderson. Siemens, Alstom, Wabtec, Arinc, Rockwell 
Collins--everybody needs all those vendors to produce software, 
hardware, get it tested, and get it ready to get installed 
quickly.
    Mr. Faso. Thank you.
    Mr. Capuano?
    Mr. Capuano. First of all, I would like to ask unanimous 
consent to insert into the record the statement of 
Representative Pramila Jayapal. She was detained in another 
hearing and couldn't join us----
    Mr. Faso. Without objection, so ordered.

        [The statement of Congresswoman Pramila Jayapal is on pages 48-
        51.]

    Mr. Capuano. And with that, I am going to reserve my time 
and let Mr. DeFazio go first.
    Mr. DeFazio. Thanks, Michael, I appreciate it.
    The NTSB this morning, I understand, issued an urgent 
recommendation regarding what actions railroads should take 
during signal suspensions.
    I am hearing CSX is saying, oh, well, we had to shut down 
the signal because we were installing the new system. A, I 
question whether that is true. And, B, if they are shutting 
down an existing signal, my understanding is some railroads 
require that flaggers or other people be out there and some 
don't. Can you tell me what is going on here?
    Mr. Sumwalt. Well, Congressman DeFazio, thank you very 
much. Of course we are still looking into all of the options 
for what could have been put in place for the Cayce accident, 
but our urgent recommendation that we issued this morning to 
the FRA is that once signal suspension is in effect, and a 
switch has been reported to be relined for the main track, as 
was the case in Cayce, we want the first train that goes 
through that switch to operate at restricted speed. That way it 
is at a much-reduced speed, they can detect that the switch, 
just visually, is not lined properly before they even encounter 
it.
    After it has been verified that that switch is properly 
lined, then normal speed, track speed, can resume.
    Mr. DeFazio. OK. But, I mean, my question is when one 
switch is over from the existing technology to the new 
technology, you know, is it inevitable that the old technology 
can no longer function, or the signal lights won't function in 
that section of track? If so, it seems like we need to have 
some sort of a rule for what is going to happen there.
    Mr. Sumwalt. Well, I would actually have to defer to the 
railroad experts to be able to determine that. Our expertise is 
investigating----
    Mr. DeFazio. OK, all right. Well, all right. Any ideas on 
that, Mr. Reyes, at FRA? I mean because we are going to be 
switching over a lot of systems in the next year and a half 
here or so, or year.
    Mr. Reyes. Yes. You know, I actually do have my head of 
safety, Bob Lauby, here. And we were discussing this request 
this morning. And if this is something that does make sense, we 
will implement whatever needs to be done to keep the public 
safe.
    Mr. DeFazio. OK, thanks. Now, there is the dark territory, 
which is of concern. And then in 2008 Congress required the 
Secretary to prescribe standards, guidance, regulations, or 
orders governing development and implementation of safety 
technology in dark territory, such as switch position 
monitoring devices or indicators. It makes up a lot of the rail 
network. Have we made progress on this? None, Mr. Sumwalt? 
None, whatsoever? OK.
    Mr. Sumwalt. No, sir. We did issue that recommendation as a 
result of the Graniteville accident, and we closed that 
recommendation, ``closed unacceptable action.''
    Mr. DeFazio. ``Closed unacceptable action''? How come there 
is no action, Mr. Reyes?
    Mr. Reyes. At this point, when there are safety issues, we 
believe that PTC is helpful in many of the situations----
    Mr. DeFazio. Right, but we are talking about dark 
territory, it is not going to work there. So tell me.
    Mr. Reyes. Right. So in--well, when you are talking about 
dark territory, if you are talking about something that is 
going to prevent train collisions, overspeed, problems in work 
zones----
    Mr. DeFazio. Switch problems, et cetera.
    Mr. Reyes [continuing]. Or switch problems----
    Mr. DeFazio. Right.
    Mr. Reyes [continuing]. OK, these are the areas where PTC 
would help. If--PTC, I believe, is helpful throughout many of 
the situations.
    Mr. DeFazio. OK.
    Mr. Hamberger. It is my understanding, if I might jump in, 
Mr. DeFazio, that, in fact, Positive Train Control, in dark 
territory, switch indicators are being installed, and will be 
part of the final PTC systems.
    Mr. DeFazio. OK, so they will----
    Mr. Hamberger. So that will address the----
    Mr. DeFazio. They will show up on the screen, on the----
    Mr. Hamberger. It will. I don't know exactly the technical 
way it is working, but it is designed to achieve what you want 
to achieve, and that is to not give the train authority if the 
switch is in the wrong alignment. Correct.
    Mr. DeFazio. Right.
    Mr. Hamberger. This is one of the requirements----
    Mr. Tolman. Mr. DeFazio? If I may?
    Mr. DeFazio. Yes.
    Mr. Tolman. If I may speak to that, switch point indicators 
could be radio transmitted to a dispatcher that would tell the 
train that the switch is open and improperly lined. That could 
have happened when they took that track of--section in South 
Carolina out of service. They could have had a switch point 
indicator there and told them that the switch is improperly 
lined.
    Mr. DeFazio. All the technology exists today, you are 
saying?
    Mr. Tolman. Technology has been studied by BNSF Railroad 
since 2004, and it does exist, and it is--I believe it is 
ready, willing, and able to be implemented. And, you know----
    Mr. Hamberger. And I believe the answer to Mr. DeFazio's 
question is that it is being implemented as part of Positive 
Train Control in dark territory.
    Mr. DeFazio. All right.
    Mr. Tolman. Yes, you said that, but there is 40,000 miles 
of dark territory track.
    Mr. Hamberger. I just answered his question.
    Mr. DeFazio. OK, I am over on my time, but I--we will need 
to get into this a little more, because this is a major issue, 
particularly for Amtrak. So thanks very much. Thank you.
    Mr. Faso. The gentleman from Texas, Mr. Weber, you are 
recognized for 5 minutes.
    Mr. Weber. Thank you, Mr. Chairman. Golly, so many 
questions, so let me just get to the--a quick one. Positive 
Train Control, Republican retreat last week, there was a--or I 
guess it was last week, there was a collision. Does PTC 
identify vehicles coming to the intersection?
    Mr. Hamberger. No.
    Mr. Weber. Is there any thought about that?
    Mr. Hamberger. That certainly is something that, I assume, 
once the PTC system is installed, I think railroads will be 
taking a look at what additional--PTC 2.0, so to speak, what 
additional things can be done. And obviously, grade crossing 
safety is something that will have to be looked at.
    Mr. Weber. It was mentioned earlier--and I forget which one 
of you all said it--that there are a limited number of 
suppliers for this information--I mean for this technology. And 
the choices are few, I guess.
    How do you get to the point where we have a--then you 
mentioned--I think, Ed, you mentioned different IT platforms. 
How do you get to the point where you have interoperability, 
where you get to the same platform and one system? What does 
that look like? Anybody? You can throw that on----
    Mr. Anderson. Amtrak has three platforms. And there is 
nothing technologically that prevents the three platforms from 
interoperability, or for us to be able to operate our railroad 
with three separate PTC platforms.
    Now, we are going to have to have some locomotives that are 
double-equipped, so they have the hardware in the cab of the 
locomotive for both the Michigan service and the service that 
we operate over the Class I host. You would like for better 
simplicity, but it is what it is, and it can be made to work 
fine.
    Mr. Hamberger. I believe the word ``federated'' is what the 
technical folks use to describe the pipe of communication 
between a back office server and the locomotive and between the 
locomotive and the other railroads' back office servers. And so 
that has to be established, you know, on basically a bilateral 
basis between every railroad that is operating over your track. 
And the Class I railroads operating on the Northeast Corridor 
have to be dual-equipped, as well, because they have to be able 
to work with ACSES--the name of the Amtrak system--as well as 
I-ETMS, so----
    Mr. Weber. Let's stay on----
    Mr. Hamberger. I think----
    Mr. Skoutelas. If I could just add just a quick point to 
that, just to say that the commuter railroads really operate on 
kind of a diverse operating environment. For the most part, 
many of them operate with freight railroads. And so the PTC 
solution has to be one of interoperability, as you have heard. 
In the cases where they are operating alone, where there is no 
freight, then they perhaps can operate with a different, more 
simplistic PTC solution.
    But again, there is so much diversity among the railroads, 
the commuter rail side, and where they operate, the operating 
characteristics, the layouts of their trackage and so forth, 
that it really does take a unique PTC solution for each one.
    Mr. Weber. And that is an interesting thing about Amtrak. I 
was looking through the percentages here. It looked like the 
rest of the other rail lines--and I didn't do all the math, but 
they talked about, you know, the amount of training for their 
people, they talked about the length of tracks, and so on and 
so forth. The percentages were higher for the railroads, but 
Amtrak was probably about two-thirds of that kind of progress. 
And yet you run on most other people's tracks. Is that right?
    Mr. Anderson. That is correct.
    Mr. Weber. Why the difference? Why are they so far ahead in 
implementation?
    Mr. Anderson. Well, it depends on where you are looking. In 
the Northeast Corridor, we are in great shape, and we have had 
PTC in the Northeast Corridor in good shape for a long time. On 
the route we own in Michigan, we have PTC in place.
    In a number of the other locations, it is dependent upon 
who the host railroad is, and their progress toward putting in 
the most important and most difficult part of PTC, which is all 
the track-side sensors, antennas, and equipment, so that the 
train can signal its position and its speed and its location.
    Mr. Weber. OK. Well, let me--I have got half a minute left.
    So are there going to be calculations--and I know this is 
really getting down in the weeds on two fronts--are there going 
to be calculations--if you have got a train carrying a lot of 
hazardous materials versus a train carrying people, are the 
reaction times increased for certain levels?
    In other words, you hear about airplanes--I think somebody 
mentioned the airline industry--you hear about some planes that 
fly into mountains, and the voice saying ``Pull up, pull up,'' 
and they shut it off, thinking there is something wrong with 
it, and then they crash into a mountain. But is there something 
that is going to give--how much time--and does it vary for 
people and hazardous materials?
    Mr. Hamberger. Yes, you have gotten into a very technical 
area, Mr. Weber----
    Mr. Weber. Right.
    Mr. Hamberger [continuing]. Which we call braking 
algorithms. If you take a look at the highway, a Smartcar can 
stop a lot faster than an 80,000-pound truck. Similarly, an 
intermodal train, or a passenger train, can stop a lot faster 
than a 110-car, fully loaded grain----
    Mr. Weber. So you do give extra----
    Mr. Hamberger. It has to be taken into account----
    Mr. Weber. Right.
    Mr. Hamberger [continuing]. When calculating when do you 
have to hit the brakes----
    Mr. Weber. Got you.
    Mr. Hamberger [continuing]. So that it will stop before it 
runs the red light.
    Mr. Weber. Yes, I got you. My time has expired. Thank you, 
Mr. Chairman.
    Mr. Faso. The gentleman from New Jersey, Mr. Sires, 
recognized for 5 minutes.
    Mr. Sires. Thank you, Mr. Chairman. Thank you for holding 
this hearing. You know, I represent Hoboken, New Jersey, and we 
recently had the accident in Hoboken, New Jersey. It could have 
been prevented or could have helped if we had PTC. It was a 
miracle that only one person died, because if you had ever been 
to the station you realize how many people are there. Also, 
sleep apnea, if we had tested the engineer, it might have 
helped, because it was determined that was part of the problem.
    But my question is to you, Mr. Reyes. New Jersey Transit 
used to be a great transit system. In the last few years it 
really has lost all its sass, you know, all its--so I was just 
wondering. You met with New Jersey Transit. And have they given 
you the fourth-quarter report on what they are doing with PTC?
    Mr. Reyes. They did give us--they are required to give us 
their updates, and it is annually, but they have been doing it 
quarterly, as all the other railroads have. We have the 
information, it was submitted before January 31st. That should 
be published soon on----
    Mr. Sires. What I really want to know is what progress have 
they made. I think I know.
    Mr. Reyes. Well, having----
    Mr. Sires. I just want to----
    Mr. Reyes. Having looked at the data, which is not yet 
released, I know they have made some progress.
    Mr. Sires. Yes, with PTC.
    Mr. Reyes. But--and with PTC. However, with the----
    Mr. Sires. You can say none, you know. It is OK.
    Mr. Reyes. No, there was some progress. But they also came 
in--more importantly--we met with these railroads for 2, 2\1/2\ 
hours, right, and New Jersey Transit being one of them. And I 
am very familiar with your system. I am a New Yorker.
    Mr. Sires. Now, do you expect them to ask for an extension?
    Mr. Reyes. They came in, they gave us a plan, they said 
they would be able to make the deadline for all the 
requirements by December 31, 2018. We are going to keep working 
with them and pushing them and whatever we have to do to get 
them the deadline----
    Mr. Sires. Yes, I know they have no money----
    Mr. Reyes. We are not going to give up on any railroad 
right now.
    Mr. Sires. I know they have no money, and they have very 
few loan options. But we provided $68 million in rail safety 
improvement grants. The FRA has not issued a notice of 
availability for these grants. Do you intend to do that soon, 
or----
    Mr. Reyes. I believe you are referring to the CRISI 
[Consolidated Rail Infrastructure and Safety Improvements] 
grants.
    Mr. Sires. Yes, the CRISI----
    Mr. Reyes. Yes. So those were--those are being released 
today.
    Mr. Sires. Excuse me?
    Mr. Reyes. I believe those are being released today.
    Mr. Sires. Today?
    Mr. Reyes. I was informed before this meeting, yes. And so 
they will be available for PTC funding through the CRISI grant.
    Mr. Sires. Boy, I am glad we had this hearing, because I 
found out that we are being released today.
    Mr. Reyes. Well, we are working to help New Jersey Transit 
and all the commuter lines get to the deadline.
    Mr. Sires. And I guess I have a question regarding this 
technology, because I am not really all that well versed in 
technology. But you keep telling me that there is, like, two or 
three different types of technologies out there, and to 
coordinate this, in order for it to be able to work this--is 
there a possibility that in the future we can come to one 
technology, where everybody has the same technology? What is 
stopping us from doing that?
    Mr. Tolman, maybe you want to answer that.
    Mr. Tolman. Congressman, one issue is that, you know, they 
are talking about not having enough resources. But you know, in 
1996 I was operating Amtrak on the Northeast Corridor with PTC. 
Now, that was a few years ago, I guess. It wasn't close enough, 
it wasn't the 50-year window. But, to me, you know, there is no 
reason this shouldn't be done. I mean I don't get it.
    But Congressman, I would like to address--I know the 
accident in Hoboken was an extreme tragedy, and every 
accident--no accident should ever happen. And you know, sleep 
apnea was found to be a cause of two recent accidents.
    But you know, the number one issue in the railroad 
industry, unsafe issue, is fatigue. And that encompasses 
everything around that that would have taken care of--if we 
addressed that with the Rail Safety Improvement Act in 2008, we 
would have addressed sleep apnea as a whole issue, whole part 
of the issue. It is a minor part of the fatigue issue. But I am 
going off on a tangent and I don't mean to.
    Mr. Sires. And Mr. Skoutelas, I am concerned about the 
public having the confidence to ride safely in the transit 
system, because it is very important in my district to get 
people off the roads. With all these accidents, do you think 
that the public is losing the--how can I say--the reliance on 
safety of the transit system?
    Mr. Skoutelas. Well, look. I think all of us, as stated 
earlier, are committed to the utmost safety--safe system that 
we can possibly get. And as I mentioned a few moments ago, the 
commuter rail, passenger rail system, is a safe system.
    Of course, when an accident happens, it is a tragic--it is 
tragedy. And we feel for the victims, and we know that we need 
to continue to work toward a safer system. I don't believe that 
the public necessarily feels that they are not, but we need, as 
professionals, to provide the very, very best service and 
safety that we possibly can.
    Mr. Sires. My time is up. Thank you very much, Chairman.
    Mr. Denham [presiding]. Mr. Mast, you are recognized for 5 
minutes.
    Mr. Mast. Thank you, Chairman, for letting me join your 
subcommittee today. I want to thank you all for being here to 
discuss this very important rail safety issue of Positive Train 
Control.
    In south Florida, where I represent, south Florida, the 
palm beaches, the Treasure Coast, nearly every single crossing 
that we have in our area is at grade, same level as the cars, 
as the walkers, as the bicyclers. We are very familiar with 
freight traffic, but we have also had commuter rail there, not 
at a high speed, known as the Tri-Rail that has been running 
there for years. But as of this January, just recently, we also 
now have the Brightline rail line, which is running at 70 to 
110 miles per hour throughout this stretch.
    In the Brightline's first week of operation alone, the 
first week, three people were struck. There have now--since 
then, since it began in January, there have been four 
fatalities since January, numerous non-fatal accidents, and 
there was just one more last night, which we are still 
gathering details on.
    So Mr. Reyes, you are the chief counsel for the Federal 
Railroad Administration, whose mission is rail safety movement. 
Mr. Sumwalt, you are the Chairman of the National 
Transportation Safety Board. So I would like to know. Are the 
NTSB and the FRA, are they aware of these incidents?
    Mr. Reyes. Thank you, Congressman. This is an issue that we 
are very concerned about at FRA to make sure that people that 
are trespassing at grade crossings are aware----
    Mr. Mast. So yes----
    Mr. Reyes [continuing]. Of the----
    Mr. Mast [continuing]. You are aware of the incident?
    Mr. Reyes. We are absolutely aware, and----
    Mr. Mast. Mr. Sumwalt, you are aware of the incidents?
    Mr. Sumwalt. Yes, sir. We are.
    Mr. Mast. Thank you very much. Does the Brightline 
currently implement PTC rail safety measures?
    Mr. Reyes. Yes, they are currently operating on PTC.
    Mr. Mast. They are operating. And why----
    Mr. Reyes. Could I just check with my safety advisor? 
Because I know--it might be a different version than what we 
are talking about.
    Mr. Mast. Please do so. We would love to know the exact 
fact.
    Mr. Reyes. Yes, it is called the ATC [Automatic Train 
Control] system, and--hang on a second.
    [Pause.]
    Mr. Reyes. OK. So they do--they have a system called ATC, 
they are doing some testing, and then they will be fully 
implemented, as soon as the testing is finished. But it is 
currently on that system.
    Mr. Mast. So is there currently an investigation as to why 
the ATC has not been effective in preventing----
    Mr. Reyes. Well, ATC or even full PTC would not be 
effective when people are crossing at grade crossings against 
the flashing lights and the gates being down, right? What PTC 
does do, it stops train-to-train collisions, it stops trains 
that are in overspeed situations--say they are going way too 
fast, 70 or 80 in a 30 zone. If there is a designated area 
where there is a work crew, PTC would be programmed to slow 
down or stop for that area. And also, if there is a misaligned 
switch.
    However, with grade crossings, PTC is not programmed or 
mandated to address that situation. That type of situation 
could be improved by improving grade crossing, maybe moving 
them further away, or technology--there is new technology that 
we are researching at FRA that would issue an alert on cars or 
cell phones before they hit the grade crossing.
    But the main thing that was really most helpful anywhere is 
awareness, and to let people know the dangers of crossing 
against--or trespassing onto track. We have invested----
    Mr. Mast. Thank you, Mr. Reyes.
    Mr. Anderson, you stated in your comments----
    Mr. Hamberger. If I could just jump in, the current PTC----
    Mr. Mast. Maybe in just a moment, if I have more time.
    Mr. Hamberger. Yes, sir.
    Mr. Mast. Mr. Anderson, you said, ``Passenger rail must 
have a much higher standard.'' You are the chairman of Amtrak, 
the CEO of Amtrak. You know about passenger rail. Does what I 
just mentioned to you about those incidents--all since 
January--seem like a higher standard to you? And do you believe 
that there is more of an impetus for safety with each mile per 
hour that we are going faster, 161 feet per second, 110 miles 
per hour?
    Mr. Anderson. Actually, the data would show that the number 
one issue we have with rail safety across America is grade 
crossings. We have about 2,000 incidents a year in our country. 
And it is probably the single biggest issue in terms of safety 
of people. There are far more people that are hurt or injured 
or killed in grade crossings than anything else going on on 
railroads.
    And I would note that, you know, the FRA administers a 
program every year for States, and we are investing about $230 
million a year in grade crossing grant programs through the FRA 
to States and local municipalities to rectify grade crossings 
to prevent these terrible accidents.
    Mr. Mast. Thank you, Mr. Anderson.
    Mr. Anderson. Thank you.
    Mr. Denham. Mr. Mast, your time has expired.
    Mr. Larsen, recognized for 5 minutes.
    Mr. Larsen. Thank you, Mr. Chairman. Mr. Chairman, I would 
like my statement in--submitted for the record.
    Mr. Denham. Without objection.

        [The statement of Congressman Rick Larsen is on pages 45-47.]

    Mr. Larsen. Thank you.
    Mr. Sumwalt, I just wanted to go back to Washington State 
and the DuPont tragedy. Sound Transit reported that, you know, 
the PTC system was online, was not operational at the time of 
the accident.
    So I recognize the investigation is ongoing. Would you 
elaborate, though, on NTSB's latest findings regarding PTC in 
this particular instance?
    Mr. Sumwalt. Congressman Larsen, thank you. As you pointed 
out, the investigation is ongoing. We are trying to untangle 
all of the aspects of that accident. There are no current 
updates available.
    Mr. Larsen. There are no current updates available?
    Mr. Sumwalt. Yes, sir. That is correct.
    Mr. Larsen. All right, thank you.
    Mr. Reyes, the DOT's proposed budget for 19 States or 
agencies will continue to target its resources at the most 
pressing safety challenges, including implementation of PTC. 
However, I just was wondering how you plan to meet those 
objectives with just half of the Federal funding that you have 
received previously.
    Mr. Reyes. The proposed budget does not significantly 
change our funding for our safety programs. There was a--in the 
budget there was a new look at funding for long-distance rail 
and Amtrak, so that is really where the money is coming from. 
But we are going to continue the same level or more of this--we 
have the same staff, we have the same programs, and we are 
going to continue making safety the number one priority at our 
agency.
    Mr. Larsen. I am glad to hear you want safety to be the 
number one priority, but I--you know, some--given the proposal, 
I guess I am scratching my head about whether you will be able 
to accomplish that.
    And, Mr. Anderson, you notified the State--our State's 
department of transportation, Washington State, of your 
immediate, mid-, and long-term initiatives underway to ensure 
safety corridor of operations in the Amtrak Cascades Corridor. 
How will the administration's proposed 2019 budget impact your 
ability to execute those measures?
    Mr. Anderson. Well, we haven't done an analysis 
specifically. But to be candid, if you take the normal Amtrak 
grant of about $1.4 billion to $1.7 billion, which is 
authorized under the FAST Act, and you cut it by about $1 
billion, it is tough. Now, we are not going to do anything 
unsafe, we will just stop operating. But the company has a 
challenge as a going concern if that happens.
    Mr. Larsen. Yes. I suppose it would be--we would have a 
100-percent safety record if you didn't have to operate at all.
    Mr. Anderson. Well, that is not a very good answer.
    Mr. Larsen. It isn't a good answer. And I know--I am just 
saying that you are stuck with this proposed budget that 
apparently cuts Amtrak, in order to fund FRA.
    Mr. Anderson. Well, I don't want you to think we would do 
anything unsafe as a result of that. I mean in the airline 
industry we went through bankruptcy and a lot of things, but we 
never, ever compromised safety, and we won't.
    But the bottom line is the proposed budget makes Amtrak 
viability very difficult, going forward. We are going to file 
our grant request tomorrow and ask for the full FAST Act 
funding, and Congress has been very supportive of Amtrak, for 
which we are very appreciative.
    Mr. Larsen. Yes, thanks.
    Mr. Reyes, on January 10th I joined several Members of 
Congress in sending a letter to Secretary Chao on requesting 
the status of Amtrak's action plan submission, and we have yet 
to receive a response from the Secretary. Do you have a status 
of the Department's review?

        [The letter of January 10, 2018, to U.S. Department of 
        Transportation Secretary Elaine L. Chao from Congressman Rick 
        Larsen et al. is on pages 228-229.]

    Mr. Reyes. I would be more than happy to check with my 
staff to see what the status is of Amtrak's review. So please 
allow me time to get back to you.
    Mr. Larsen. That is fine, thank you.
    Mr. Tolman, could you describe the role that your members 
are playing in the NTSB investigation, and the Amtrak Cascades 
501 tragedy? I am just interested to hear how you guys play out 
that role.
    Mr. Tolman. Yes, thank you. We have a--the BLET and the 
SMART Transportation Union and any other issue that is in any 
other--like if it is a track issue, the maintenance of way is 
involved. Signal, if it is a signal accident. But we work side 
by side with the NTSB and have been doing that for over 20 
years. We have a complete party status to the investigation and 
our duty is--as theirs is--to try to find out what happened, 
and how to fix it.
    Mr. Larsen. Yes, thank you.
    Mr. Tolman. And prevent it.
    Mr. Larsen. And prevent it. Thank you, thank you.
    My time is almost up, and I--Mr. Chairman, I just would 
like to note I will be submitting some QFRs, as well, and yield 
back. Thank you.
    Mr. Denham. Thank you, Mr. Larsen. I now recognize myself 
for 5 minutes.
    Mr. Sumwalt, first, specifically on the end-of-the-year 
deadline that we have before us, I have heard from railroads 
across the entire country about the relationship between a host 
and tenant railroads, and how they will be treated at the end 
of the year. In some cases--in my district, for example--we 
have, in the valley, an ACE train as well as Amtrak on the San 
Joaquins. Both of it run on both the UP line and Caltrain 
track. And in some cases across the entire country, you are 
going to have the host that is fully implemented with PTC, but 
the tenant railroad not, or vice versa.
    So, in those cases, Mr. Reyes, how is FRA going to treat 
those cases at the end of the year when it comes to fines or 
extensions, if they apply?
    Mr. Reyes. OK, thank you for your question, Congressman. At 
this point we have met with 41 railroads in the past 45 days at 
the express instruction of Secretary Chao. We are working with 
every single railroad so that they can meet all of the 
requirements for the December 31, 2018, deadline. They need to 
install 100 percent of their hardware, purchase all their 
spectrum, do employee training, as well as have revenue service 
demonstration.
    We are not ready to give up on any railroad at this time. 
We are going to work with them by providing them frequent 
technical assistance. We are going to----
    Mr. Denham. I understand the company line, right? I get it. 
We all want to have them fully up and implemented. This is a 
great, great technology. But, as we have seen, there are some 
that have put PTC in place very quickly, they have done the 
expense. There are others that haven't even started. So if they 
haven't even started to this point, we are well aware that 
there are some that will never get there by the end of the 
year.
    And the question is are we going to penalize the host, who 
may be fully implemented, or the tenant in either one of those 
cases? Or vice versa. Depending on who is ready and who is not, 
who do we fine and who do we get extensions to?
    Mr. Reyes. Congressman, we are ready to use anything that 
we can to push these railroads to comply with the December 31st 
deadline. We are meeting with them, we are giving them 
technical advice. We are going to do everything possible. We 
are not ready to give up on them. No one has come in and asked 
for an extension. They have all----
    Mr. Denham. And that is the problem. I think that is the 
problem both the ranking member and I have, is the--we are well 
aware of some that are far behind or not even started, and they 
have not asked for an extension, nor have they asked for 
grants. They are only waiting to see the deadline get there.
    So let me ask you this, Mr. Reyes. What are FRA's plans and 
schedule to provide guidance for host and tenant railroads? 
When will we have your guidance out for them?
    Mr. Reyes. Well, right now, all the railroads are required 
to submit their plans for implementation of PTC. We will be 
reviewing those plans. And if we have comments on them, we will 
issue comments on the plans that they submit.
    Mr. Denham. Thank you. And my time is limited on this 
round, but I do want to get one thing out there.
    Mr. DeFazio and Mr. Capuano have a bill, H.R. 4766. I agree 
with the premise of the bill. I agree that the final deadline 
should be 2018. This has gone on for 10 years now. It ought to 
be very obvious what needs to be done and how this should be 
implemented.
    The question that I have, again, there are so many 
different entities out there that either have not filed for an 
extension, they have not made it aware to us where they are at 
in the timeline, or, three, they have not come and asked for 
grants. There are a number of railroads that I have reached out 
to and said, ``What do you need? Let me help you get to this 
grant process.'' And they have told us, ``Nope, we are fine.''
    So I think we are in a real quandary here, you know, on the 
ranking member's bill. I do have concern and question about the 
$2.5 billion in new grant programs, when there is $31 billion 
out there available today. The last bill we did, we allowed 
RRIF loans to be used for PTC, which Amtrak should have 
utilized in a greater fashion, and others.
    There are a lot of opportunities out there for grant 
programs that should be utilized, and some that have utilized 
grant programs but failed to implement. So there are a number 
of other questions, and I will address some of this in my 
closing. But I have to just say that I do agree with the 
ranking member of the full committee and ranking member of this 
subcommittee, that this 2018 deadline is a real deadline and 
one we have got to address.
    Safety is first in all of our transportation. But as of 
late there have been way too many accidents, and we can do 
better.
    I yield back. I now recognize Mr. Capuano for 5 minutes.
    Mr. Capuano. Wow. And people thought bipartisanship was 
dead.
    [Laughter.]
    Mr. Capuano. It is not. This is a classic example. The 
chairman and I have talked many times about this. We are on the 
same page. You know, we are trying to be reasonable. That is 
why the extension went to 2018. Unreasonable people would have 
said, well, 2015, which was impossible. But 2018 is real.
    And I will tell you there is not a single person on this 
side of the table that is going to sit here and quietly just 
accept the next accident after that deadline. The blame for 
that will be laid on the people who deserve the blame, people 
who are not doing their job.
    Mr. Sumwalt, I want to publicly thank you and your agency 
for keeping the fire on this issue for so many years. I know it 
is not pleasant, I know you don't enjoy it, I know there are 
other things you would like to get to, and I just want to 
express our appreciation of--the NTSB has been, in my opinion, 
one of the best agencies we have. You do a great job on every 
aspect. And this kind of a thing, doing it professionally and 
consistently, is really--I think really been helpful.
    I do want to specifically talk about interoperability. I 
get it. But I have an iPhone, my wife has a Samsung, we can 
still talk to each other. We can see each other if we want to. 
Interoperability may not be easy for a person like me, who can 
barely turn this thing on, but there are plenty of 15-year-old 
kids in this country who can do whatever is needed to get it 
interoperable. So, though I am sure it is a bump in the road, 
it is a small one.
    Mr. Reyes, I would like to ask the FRA. When it comes to 
interoperability, I really appreciate the fact the FRA is 
sticking to their guns at the moment. I appreciate the money 
that you have put out there to try to help people do this. I 
assume there will be more, if necessary.
    But at the same time, I also see the FRA as having a 
particularly important role in requiring certain 
interoperability. You can't just say do it, here is the money, 
and go ahead. Somebody has to be responsible to make sure that 
one system talks to another. And my hope is that the FRA--not 
my hope, my expectation is the FRA is that agency. And I am 
hoping that that is your role.
    Mr. Reyes. Well, absolutely. We oversee the railroads. And 
one of the requirements of full implementation is 
interoperability. You know, the PTC system must be completely 
interoperable between all the railroads in order to have a safe 
system.
    We are reviewing the safety plans. That is a requirement. 
We are pushing all the railroads to not only just have the PTC 
system up for themselves, but to have complete 
interoperability.
    Mr. Capuano. I appreciate----
    Mr. Reyes. That is something that we----
    Mr. Capuano. I appreciate that. And I knew the answer, but 
I needed it to go on the record. And I appreciate that very 
much.
    Mr. Reyes. OK, thank you.
    Mr. Capuano. I would like to ask Mr. Hamberger, Mr. 
Anderson, and Mr. Skoutelas a simple question.
    Mr. Anderson, I think your initial testimony was pretty 
clear, but I want to draw a big, bold line under it. As we have 
heard--and again, more for the audience; everybody here knows 
this, but maybe there is some people at home that don't 
understand--PTC is a technology that requires hardware and 
software both on the track and in the railcars, in the engines. 
So you can't have one without the other. And trains of all--
operate on somebody else's track. You all do it, it is all 
done, and the average person may not know that. They may think 
you own the track, or maybe they think the Government owns all 
track. So, therefore, that is what the interoperability is all 
about.
    But there is also--I am a--well, I was a lawyer. I am a 
recovering lawyer. I am practicing politics, I guess. I don't 
know which is worse, but that--somebody else can decide that.
    [Laughter.]
    Mr. Capuano. But as a recovering attorney, one of the 
things I used to worry about with my clients was liability. If 
my client had done nothing wrong, they had done the right 
thing, they were probably not liable for any actions that might 
happen.
    In the future, in the very near future, there will be 
situations where, for the sake of discussion, a stretch of 
track has perfectly good, working PTC, yet somebody else using 
it does not have PTC on their engines, or vice versa, or 
whatever it might be. And all three of your groups and agencies 
have that situation. None of you run exclusively on your own 
track with exclusively your own trains.
    I am hoping and wondering--have you spoken to either your 
attorneys or your insurers as to what will happen come January 
of next year if you have done what you are supposed to do on 
your track, and somebody else wants to run a train that has not 
done anything?
    We will just start with you, Mr. Hamberger, and then we 
will go right down the line.
    Mr. Hamberger. Not surprisingly, having been before this 
subcommittee before, the chairman and the ranking member have 
put their finger on what is, in fact, the biggest policy issue 
surrounding, as opposed to the technical issue, of 
interoperability.
    And one of the things that I was pleased to see in Mr. 
Reyes's testimony--on page 5, as a matter of fact, he talks 
about having all of the options on the table when it comes to 
how to implement the 2015 act, which was designed----
    Mr. Capuano. I don't mean--I know you are trying to give me 
a complete answer. Unfortunately, time doesn't let it. Will you 
allow other people to use your tracks if you have done your job 
and they have not?
    Mr. Hamberger. The answer is somewhat buried in the 
question of what the FRA is going to say too, in response to 
the chairman's question of what will the guidance be coming out 
of FRA. If our members feel that they can continue--you know, 
if PTC isn't there. We don't have PTC today--it is still a safe 
operation. We are a safe operation.
    Mr. Capuano. Yes, yes, I get that.
    Mr. Hamberger. So the question then is, you know, from a 
legal liability standpoint, for the lawyers to take a look at 
it. But the policy question is can you shut down commerce, can 
you shut down----
    Mr. Capuano. Well, I don't mean to be----
    Mr. Hamberger [continuing]. 2 million people a day----
    Mr. Capuano [continuing]. Disrespectful, but it is not a 
policy question.
    If I were advising you as an attorney, I would say you are 
nuts to stick your neck out on the line when you have done the 
right thing and somebody else hasn't. But that would be me 
talking to you as an attorney. And if you don't listen to your 
attorneys, maybe you better listen to your insurers.
    Mr. Hamberger. I am sure those discussions are ongoing, 
sir. Yes, sir.
    Mr. Anderson. Well, I think----
    Mr. Denham. A very quick response from each, please.
    Mr. Anderson. Yes, sir. It is going to be very difficult 
for us to allow anybody to operate on the railroad we host 
without PTC.
    Mr. Denham. Thank you.
    Mr. Skoutelas. You know, FRA guidance has been mentioned. 
And, quite frankly, the various entities have worked very well 
together in terms of exchanging information, and I would hope 
that there would be continuing dialogue around these very 
critical issues, so these final judgments can be made, and the 
proper guidance can be issued.
    Mr. Denham. Thank you. The gentleman's time has expired. 
Mr. Smucker is recognized for 5 minutes.
    Mr. Smucker. Thank you, Mr. Chairman. A question for Mr. 
Anderson.
    We have--been a lot of talk around PTC and major accidents 
in Philadelphia and Washington, which were somewhat similar--at 
least in your findings there were some similarities. Both were 
PTC preventable, but likely could have also been prevented with 
better training of the crewmembers and engineers.
    And so I would like to hear what your response has been in 
regards to the training of your employees after those 
accidents.
    Mr. Anderson. A very good point. I mean I do have to 
emphasize that while training and professionalism are very 
important, you really do have to have fail-safe systems like 
PTC. We learned that in aviation. Because when you leave it to 
a single person to remember everything about a route, no matter 
how well qualified, sometimes you are going to have human 
error.
    With that said, we are standing up an aviation SMS system 
today at Amtrak and making whatever investments are necessary 
in standards training. We need to move to full simulation, 
instead of training people out on the railroad to move to the 
aviation model and to basically operate the way an airline 
operates, with a standardized quality assurance training and 
standards organization.
    A lot of progress has been made since train 188, a lot of 
investment has been made in centralized training and bringing 
the right resources onboard. But we obviously owe you and owe 
our customers a much better result.
    Mr. Smucker. Thank you. Another question for you, Mr. 
Anderson. I would like to understand the legal impact of an 
accident similar to the one which just recently occurred, in 
terms of liability. And there was an AP article recently that I 
think you are probably aware of, where a previous Amtrak 
executive was quoted as talking about no fault contracts.
    And, of course, Amtrak--you enter into contracts with the 
freight railroads to use their line. And the premise of this 
article is that there is--all the liability comes back to 
Amtrak, which, of course, is a publicly financed railroad. And 
again, the premise was there are--that does not potentially 
provide--in fact, I will quote a quote from the article. ``The 
freight railroads''--I am not passing judgment here, I am 
saying what was quoted--``The freight railroads don't have an 
iron in the fire when it comes to making the safety 
improvements necessary to protect members of the public as a 
result of the contracts.''
    So, who is liable?
    Mr. Anderson. Amtrak is both a host itself, in the 
corridor, but it also operates on host railroads. And there has 
been a long and time-honored practice in the railroad industry 
since--one of the Members mentioned every railroad operates on 
someone else's railroad at some point in the course of a 
journey. And there has to be an apportionment of 
responsibility. And that apportionment is the user of the 
railroad indemnifies the host.
    So, when Amtrak has users of its railroad in the corridor, 
we are fully indemnified. And when we operate on other hosts, 
we indemnify those hosts. And I think it has been that way in 
the railroad industry for 100 years.
    Now, I will note, just from a taxpayer standpoint, we carry 
general indemnity insurance. We have a $20 million deductible. 
The rest is covered with a normal sort of Lloyd's slip. So we 
have plenty of insurance. And then we have a statutory cap on 
damages.
    Mr. Smucker. Let me just drill in, because I only have 1 
minute left. So can you specifically address the South Carolina 
incident, where it--you know, at least the quote from Amtrak--I 
don't know if it was from you--was that it was the fault of a 
switch that had been improperly--I don't know what the term is 
for that--but who will be liable in a case like that?
    Mr. Anderson. I would have to check and get back to you on 
the agreements. But essentially, we will be responsible for 
everyone on the train, and our train. So we will be responsible 
for all of the Amtrak-related train, passengers, and employees. 
And the host railroad will be responsible for theirs. But I 
have to defer to Bob on the cause of the----
    Mr. Smucker. And I am sorry, I am out of time.
    Mr. Anderson. OK.
    Mr. Smucker. Is this something that you would be willing to 
provide some additional information to----
    Mr. Anderson. Sure.
    Mr. Smucker [continuing]. Perhaps to the chair of the 
committee? I would be interested----
    Mr. Anderson. I no longer have a valid law license, so I 
should do it in writing.
    Mr. Smucker. Yes, thank you.
    Mr. Denham. Thank you, Mr. Smucker. I now recognize Mrs. 
Napolitano for 5 minutes.
    Mrs. Napolitano. Thank you, Chairman Denham and Ranking 
Member Capuano, and thank you for holding the hearing. I am 
proud to be back on this subcommittee, and I am glad that my 
first year is back on this important issue of Positive Train 
Control, one of my favorite things.
    My district is home to major freight and railroad of Union 
Pacific and BNSF, long-distance passenger rail of Amtrak, and 
the busiest corridor on Metrolink's commuter rail system. In 
many instances, these railroads operate on the same track. 
Metrolink is 100 percent PTC implemented on the rights of way 
in southern California, and I hope their freight partners and 
Amtrak will be fully interoperable by the deadline.
    But my first question is to Mr. Hamberger. What is the 
status of BNSF and Union Pacific's implementation of PTC in 
southern California, and will your companies have full 
implementation in southern California by the deadline?
    Mr. Hamberger. Thank you, Congresswoman, and great to have 
you back on the subcommittee.
    The BNSF and Union Pacific are, in fact, fully implemented 
on their own lines in southern California. BNSF has completed 
its interoperability testing with Metrolink, and they are 
operating today under PTC. Union Pacific is in interoperability 
testing with Metrolink, as we speak, and hope to complete that, 
and then move to PTC operation, certainly by the end of the 
year, hopefully before that. And UP and BNSF are in 
interoperability testing between themselves in southern 
California as well, and hope to have that completed. As for 
Amtrak, I don't know where they are.
    Mr. Anderson. Amtrak will be in compliance by year end.
    Mrs. Napolitano. Great.
    Mr. Anderson. And we actually provide the T&E crews on 
Metrolink.
    Mrs. Napolitano. Well, the next question is for Mr. 
Anderson.
    What is the status of Amtrak's implementation of PTC on all 
corridors that you operate on in southern California? Will you 
have full implementation in southern California on all rights 
of way that you use by the deadline? If not, what is the 
schedule for implementation there?
    Mr. Anderson. We will be fully implemented by the deadline.
    Mrs. Napolitano. For sure?
    Mr. Anderson. Yes.
    Mrs. Napolitano. OK. Mr. Anderson, excuse me, you have 
repeatedly said that you will not allow a non-PTC train to 
operate on your right of way. The concern in southern 
California is that Amtrak will not be in compliance for local 
freight--and freight right of way. How are you addressing this 
concern?
    Mr. Anderson. Could you repeat the question?
    Mrs. Napolitano. You have said that you will not allow a 
non-PTC train to operate on your right of way. The concern is 
that Amtrak will not be in compliance on local and freight 
right of way.
    Mr. Anderson. The same answer as your earlier question. We 
will be in compliance by the deadline.
    Mrs. Napolitano. You will be?
    Mr. Anderson. Yes.
    Mrs. Napolitano. A question for Mr. Tolman. I have a 
concern with the long trains, Mr. Tolman, and the ability of 
the trains to stop effectively. Will this affect long trains in 
any way?
    Mr. Tolman. You know, it is a great question, because it is 
a concern that continues to increase. Trains now are--average 
somewhere around 2 to 3 miles. The longer the train, the more 
difficult it is to control.
    You know, God forbid we--as one of the congressmen 
mentioned about public grade crossings, if something goes wrong 
at a public grade crossing--which there are thousands every 
year, an average of three deaths every day in the United 
States--that all comes into play. If a 2- or 3-mile train is 
involved in a collision with an automobile or whatever, it is 
going to delay anybody that wants to get through a public 
crossing.
    We have expressed this to the FRA. The FRA is concerned, as 
we are. And it is a major issue that we need to address, sooner 
than later, before, you know, something seriously goes wrong.
    Mrs. Napolitano. Mr. Sumwalt, the issue of the length of 
the train and safety with PTC.
    Mr. Sumwalt. Yes, ma'am. We do not have a position on the 
length of trains.
    Mrs. Napolitano. Are you considering looking at it?
    Mr. Sumwalt. No, ma'am. We investigate accidents. If we 
find a problem as a result of one of our accidents, then we 
will address it.
    Mr. Reyes. Actually, FRA is--we are concerned about this 
issue. Currently GAO is studying this issue, and we are 
awaiting the results. So we are watching this issue. This is 
actually not an issue that directly relates to PTC. The----
    Mrs. Napolitano. Indirectly?
    Mr. Reyes. Directly. It is more of a blocked grade crossing 
type of an issue.
    Mrs. Napolitano. Well, would you advise this committee of 
any of the findings, so we may have the information?
    Mr. Reyes. It would be my pleasure.
    Mrs. Napolitano. Thank you, Mr. Chair.
    Mr. Tolman. Mrs. Napolitano, if I may, there is no 
regulation currently on the length of a train, and there needs 
to be. That would address the issue.
    Mr. Hamberger. Since we are extending this discussion, let 
me jump in here. The fact of the matter is there are no data on 
the relationship between safety and length of train. Your 
question, how does it interact with PTC, that would go back to 
the issue of what is a braking algorithm. And that is taking 
into account whether it is a short passenger train, a fully 
loaded grain train, or a longer freight train, so there is no 
impact on the ability of that train to stop before it runs the 
red light, no matter how long it is.
    Mrs. Napolitano. Thank you.
    Mr. Denham. The gentlelady yields back.
    Mr. Hamberger. I would also just point out--it is so unlike 
Mr. Tolman to get his facts wrong--there are not three deaths a 
day at grade crossings. There are 300 grade crossing deaths a 
year, which is 300 too many.
    Unfortunately, the biggest safety problem we have is what 
we call trespassers. It is people who are cutting across to get 
to their favorite fishing hole or are not even at the grade 
crossing. And our studies with the American Association of 
Suicidology indicate that as many as 40 to 50 percent of those 
are suicides. But it is a combination challenge of not just 
grade crossings, but grade crossings and what we call 
trespassing deaths.
    Mr. Denham. Thank you, Mr. Hamberger.
    Votes have been called. If there are Members that have 
questions or comments to submit for the record, we would 
recognize those at this time.
    Mr. Babin?
    Dr. Babin. Yes, sir, Mr. Chairman. Thank you very much. I 
know votes have been called. My questions were regarding these 
cybersecurity issues in regards to Positive Train Control.
    And there is an article that was published last November in 
the Wall Street Journal entitled, ``Surveillance Cameras Made 
by China are Hanging All Over the United States.'' And 
without--I ask unanimous consent, Mr. Chairman, to enter this 
said article into the record.
    Mr. Denham. Without objection.

        [The Wall Street Journal article entitled, ``Surveillance 
        Cameras Made by China are Hanging All Over the United States'' 
        is on pages 230-238.]

    Mr. Hamberger. Would that be a question for the record? 
Because I would sure like to be able to respond to that in 
writing for the record, if that is OK.
    Dr. Babin. Absolutely. Are you familiar with that?
    Mr. Hamberger. Yes, I am familiar with cybersecurity and 
PTC. Yes, sir.
    Dr. Babin. OK. Well, these cameras hanging--if you ever 
read this article, it is quite chilling.
    Mr. Reyes. And we do have our security standards that we 
review, and the plans. So we would be happy to respond to that, 
as well, at FRA.
    Dr. Babin. OK. That would be great. Thank you.
    Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Babin. Question submitted for 
the record.
    Mr. Maloney, you are recognized.
    Mr. Maloney. Thank you, Mr. Chairman. And I particularly 
appreciate the reference you made earlier to the Commuter Rail 
Passenger Safety Act, which makes clear that RRIF funding--$30 
billion of it is available to commuter railroads.
    So my question is, Mr. Reyes, did you say earlier that New 
Jersey Transit is going to meet the 2018 deadline?
    Mr. Reyes. We have met with New Jersey Transit, as we have 
met with all the other commuter railroads in the country. We 
were informed by New Jersey Transit that they believe they can 
meet the December 31, 2018, deadline. However----
    Mr. Maloney. You mean----
    Mr. Reyes. Although we----
    Mr. Maloney [continuing]. Are extending that deadline, or 
the deadline?
    Mr. Reyes. No, the deadline that is required----
    Mr. Maloney. Have they accessed the RRIF financing? I don't 
believe they have, have they?
    Mr. Reyes. I am sorry----
    Mr. Maloney. Has New Jersey Transit accessed any Railroad 
Rehabilitation and Improvement Financing to accomplish PTC 
implementation? And, if not, how are they going to do it?
    Mr. Reyes. I believe New Jersey Transit has applied and 
obtained funds. I could get back to you on the exact amount. I 
have a breakdown of some of the other railroads, but not 
particular to New Jersey Transit.
    Mr. Maloney. On those other railroads--because my time is 
limited because votes have been called--what is the status of 
Long Island Rail Road and Metro-North? They did access--MTA did 
access $1 billion of RRIF financing.
    Mr. Reyes. Right.
    Mr. Maloney. What is the story there?
    Mr. Reyes. So--OK. So MTA, which is Long Island Rail Road 
and Metro-North, they applied for and obtained a RRIF loan of 
$967 million. They are working diligently on--and they did come 
in also, as New Jersey Transit came in--they have not stated 
that they--they have not asked for any extension.
    The railroads, especially commuters, we are having them 
come back in, even though we saw them in the first place 
because we were working with them every month--I mean sometimes 
we have two and three railroads come in a day for hours of--for 
meetings of 2 hours or more, and we are trying to push them 
to----
    Mr. Maloney. Mr. Reyes, are they going to meet the deadline 
or not?
    Mr. Reyes. This is February of 2018. Right now, we--they 
have presented a plan that they say they will be able to make 
the deadline----
    Mr. Maloney. Do you believe that plan?
    Mr. Reyes. I am working with them. I am not willing to give 
up on any railroad, and we will push them to meet the 
deadlines.
    Mr. Maloney. You are not willing to give up on them. Does 
that mean you think they are going to meet the deadline, or 
not?
    Mr. Reyes. All the railroads that have come in to meet with 
us have told us they are looking to meet the deadline.
    Mr. Maloney. Right.
    Mr. Reyes. We are going to work with them and do everything 
possible----
    Mr. Maloney. Right. Next time you have one of those 
meetings, you should mention the name Jimmy Lovell. He was a 
guy who got killed near Spuyten Duyvil on December 1, 2013. He 
got on the train in Cold Spring, New York, that morning to go 
work on the lighting at the Rockefeller Center Christmas tree. 
I know that because his wife works for me for years. His kids, 
Jack and Hudson and Finn, go to school with my kids. He doesn't 
come home any more because that preventable accident happened 
that day.
    And that was 4\1/2\ years ago, and we are 10 years into 
this, and we have provided the financing. That is why we take 
this seriously, because we represent people who are losing 
their lives, 300 deaths in the last few decades. Right? 
Thirty--what, 6,800 injuries.
    And so, sir, it is your job to make sure these railroads 
meet these deadlines. We have provided the financing. We have 
provided grants. So we are watching this really closely. But we 
are counting on you not to not give up on them, but to hold 
their feet to the fire. Do you understand why we are a little 
impatient on this?
    Mr. Reyes. In 2017 was the first year that fines were 
assessed against the railroads. That was a shot across the bow 
to the railroads to tell them we are serious and we want them 
and we are going to push them to get this implemented. And that 
is why Secretary Chao, on December 27, 2017, issued a letter 
saying that we are very serious about this, and this is 
something that needs to happen. And that is why we have met 
with every single railroad--41 railroads in 45 days--to tell 
them this is something that needs to happen now.
    Mr. Maloney. I appreciate your diligence on that.
    In the time I have left, the subject of grade crossing 
accidents came up. It is particularly interesting to me that we 
don't use--that there is no conversation of motion-activated 
cameras or sensors at grade crossings, particularly in the 
conversation of PTC. As important as PTC is, right, you know, 
it is not going to do anything about a grade crossing accident 
if there is an object on the tracks. My Republican colleagues 
went through a horrific accident just a few days ago, an 
example of where you got a vehicle on the tracks.
    Is there any conversation about why we don't use 
inexpensive motion-activated camera technology? I mean, my God, 
operators of trains could have an app on their phone. You can 
look at the weather on most high schools in America and see the 
camera. It is a free app. You can access it on your phone. The 
cameras are inexpensive.
    Why on earth wouldn't we maybe, in conjunction with weather 
stations, have simple digital camera technology, maybe linked 
to motion detection--which, by the way, you can put in your 
home for 100 bucks, or a ring--you know, door bell--why 
wouldn't we give operators the ability to, on their own phones, 
access that video, as a way to see what is ahead of them on the 
tracks, so they can stop in time? Has anybody talked about 
that? Maybe Mr. Skoutelas?
    Mr. Denham. I would ask for a quick response.
    Mr. Skoutelas. I am sorry. I have not heard that discussion 
at all. I mean the typical protection is a four-way crossing 
gates to try to avert that kind of damage and accident. But 
what you are describing, it--no, I am not familiar with that.
    Mr. Maloney. Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Maloney. Obviously, there are a 
number of other questions left on both sides of the aisle on 
this. As you can see, there is a great deal of frustration 
about the current implementation, as well as--I would say the 
thing that is more concerning is not just where we are at on 
implementing, but the question arises on where each different 
host, as well as each different tenant rail, is on the 
requests.
    If you have a timeline, we want to see that timeline. If 
you have questions or concerns or impediments, we want to know 
what those are. If you have not received funding, maybe you 
should request funding. But certainly ignoring a congressional 
mandate again won't be tolerated by either side of the aisle.
    Mr. Anderson, I am not going to hold you accountable to 
your predecessor's comments, but I will just tell you. When we 
visited the train crash in Philadelphia there was a promise in 
2015 that year would be 100 percent implemented on the 
Northeast Corridor. Not only did Mr. Boardman commit to that, 
but Mr. Moorman committed to that. So the previous two CEOs 
committed in 2015 that it was going to be implemented. Today, 
in 2018, it is still not 100 percent compliant.
    So I would like to see a timeline, not only from Amtrak's 
perspective on a national level, but certainly on the Northeast 
Corridor, where your predecessors have committed.
    Secondly, you know, as I stated before, I am in alignment 
with Mr. DeFazio and Mr. Capuano on their bill, as well, at 
least on the implementation piece of this. I have concerns on 
the grants, because we have so much grant money available right 
now that has not been requested. But specifically, 
Massachusetts Bay Transportation Authority has already received 
$400 million specifically for PTC. Illinois DOT was awarded 
$234 million, New York Metro received $973 million, both 
specifically for PTC.
    I think the American public is tired of excuses. This is an 
amazing technology that will continue to improve the safety of 
our rails across the country. But we would expect better 
communication on what the needs are before we come up against 
another deadline.
    Let me just say in closing, you know, our hearing today 
focused on the implementation of Positive Train Control across 
the entire United States. It is an important issue, lifesaving 
technology. And we understand that it is very complex. We want 
to get it done quickly. We want to get it done by this 
deadline. But we also want to get it done right.
    I know that safety in the rail industry is top of mind with 
the recent three accidents that we just saw, deadly accidents. 
In addition to my district over the weekend we saw a 32-car 
derailment that happened in Hughson, California. You know, I 
want to echo the condolences on each of these different 
accidents, not only this year, but over the last several years. 
There have been too many deaths. And PTC could have prevented a 
number of them. It is not going to solve all of our challenges, 
but as all in the industry have agreed, it moves our industry 
forward to the next level.
    I would just ask before I close out the hearing, Mr. 
Capuano, if you have any closing statements.
    Mr. Capuano. Mr. Chairman, I did, but you just expressed 
them all perfectly, and I would simply associate myself with 
every word you just said. Thank you, Mr. Chairman.
    Mr. Denham. Thank you, Mr. Capuano.
    I ask unanimous consent that the record of today's hearing 
remain open until such time as our witnesses have provided 
answers to any questions that may be submitted to them in 
writing, and unanimous consent that the record remain open for 
15 days for additional comments and information submitted by 
Members or witnesses to be included in the record of today's 
hearing.
    Without objection, so ordered.
    I would like to thank our witnesses again for their 
testimony today. And if no Members have anything else to add, 
the subcommittee stands adjourned.
    [Whereupon, at 11:33 a.m., the subcommittee was adjourned.]
    
    
    
   [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]




                             [all]
                             
                             
                             
                                    
</pre></body></html>
